<html>
<title> - AUTHORITIES AND RESOURCES NEEDED TO PROTECT AND SECURE THE UNITED STATES</title>
<body><pre>[Senate Hearing 115-465]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-465

   		  AUTHORITIES AND RESOURCES NEEDED TO 
   		  PROTECT AND SECURE THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               		  HOMELAND SECURITY AND 
               		  GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION

                               __________

                              MAY 15, 2018

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        	 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        	 
        	 
        	 
        	   U.S. GOVERNMENT PUBLISHING OFFICE
        	   
34-313 PDF    		  WASHINGTON : 2019       



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McAIN, Arizona                  CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
JAMES LANKFORD, Oklahoma             GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming             MAGGIE HASSAN, New Hampshire
JOHN HOEVEN, North Dakota            KAMALA D. HARRIS, California
STEVE DAINES, Montana                DOUG JONES, Alabama

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
                    Daniel P. Lips, Policy Director
          Michelle D. Woods, Senior Professional Staff Member
               M. Scott Austin, U.S. Coast Guard Detailee
               Margaret E. Daum, Minority Staff Director
             J. Jackson Eaton, IV., Minority Senior Counsel
                  Caitlin A. Warner, Minority Counsel
          Hannah M. Berner, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk
                   
                   

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     2
    Senator Hoeven...............................................    10
    Senator Carper...............................................    13
    Senator Hassan...............................................    16
    Senator Harris...............................................    18
    Senator Daines...............................................    21
    Senator Heitkamp.............................................    25
    Senator Peters...............................................    28
    Senator Portman..............................................    31
Prepared statements:
    Senator Johnson..............................................    47
    Senator McCaskill............................................    48

                               WITNESSES
                         Tuesday, May 15, 2018

Honorable Kirstjen M. Nielsen, Secretary, U.S. Department of 
  Homeland Security
    Testimony....................................................     4
    Prepared statement...........................................    53

                                APPENDIX

UAC Apprehensions Chart..........................................    61
Apprenhensions Chart.............................................    62
Letter to TSA....................................................    63
DHS OIG Report...................................................    66
Statements submitted for the Record:
    Church World Service.........................................    90
    National Treasury Employees Union............................    91
Responses to post-hearing questions for the Record:
    Ms. Nielsen..................................................    96
    
    

 
   AUTHORITIES AND RESOURCES NEEDED TO PROTECT AND SECURE THE UNITED 
                                 STATES

                              ----------                              


                         TUESDAY, MAY 15, 2018

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Ron Johnson 
presiding.
    Present: Senators Johnson, Portman, Lankford, Hoeven, 
Daines, McCaskill, Carper, Heitkamp, Peters, Hassan, and 
Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order. I want 
to welcome Secretary Kirstjen Nielsen. Thank you for your 
service. I did read your press release on National Police Week 
and I think it is fitting and proper that we pay tribute to the 
law enforcement officers killed in action, and just, really, 
honor the families for their service as well.
    According to the National Law Enforcement Officer Memorial 
Fund, since 1791, 21,541 law enforcement officials have paid 
the ultimate price, sacrificed their lives. Last year, 129. 
Year-to-date this year, 53. So I think it would be fitting and 
proper if we just recognized a moment of silence to honor those 
and their families.
    [Moment of Silence.]
    Thank you.
    I would ask you to consent to my written statement be 
entered into the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 47.
---------------------------------------------------------------------------
    This title of this hearing is Authorities and Resources 
Needed to Protect and Secure the United States, and I know, 
Secretary Nielsen, you have testified before the Appropriations 
Committee, so obviously the Senators can ask any questions they 
want. But from my standpoint, because we are the authorizing 
Committee, I really want to concentrate on the authorities part 
of that hearing title. And, I would like to go down the list of 
things that are certainly on my mind, and hopefully yours as 
well.
    But I think this Committee did a very good job and we are 
kind of known for a very bipartisan, nonpartisan approach to 
trying to find areas of agreement. And we did exactly that with 
the Department of Homeland Security (DHS) Authorization Act, 
which I am hoping we can pass through the Senate as quickly as 
possible, marry up with a House bill, to provide you the 
authorities that have basically become obsolete, in many cases. 
I know in the omnibus, Section 72, the flexibility of 
reorganizing parts of your Department was actually taken away, 
which is important when we take a look at National Protection 
and Programs Division (NPPD), turning that into the 
Cybersecurity and Infrastructure Security Act (CISA).
    These are the things that you need to do to do your job to 
keep this Nation safe. In cooperation with your Department we 
are working with a number of Members. I see two of them that 
are co-sponsors right now, to the Preventing Emerging Threats 
Act of 2018, which a big part of that is really addressing 
countering unmanned aircraft systems (UAS), which is a growing 
threat. It is a real threat and it is confusing. There are 
conflicting authorities, no authorities from your standpoint in 
terms of addressing those, being able to take those out of the 
air. Again, it is a complex situation.
    And, of course, I think it is just crucial that we fix our 
completely broken immigration system. The fact that we have 
laws, legal precedent, loopholes that, because you follow the 
law really prevent you from deterring additional illegal 
immigration.
    A classic example of how that would actually work was in 
2005. Under Secretary Michael Chertoff, we had a flow of 
illegal immigrants coming in from Brazil because they had a 
visa waiver system with Mexico. So we had over 30,000 
Brazilians come in 2005, and Secretary Chertoff, by utilizing 
his authorities, apprehended--I think they called the program 
``Texas Hold 'Em''--apprehended those Brazilians, held them in 
detention until their case could be adjudicated, and then 
returned them. By the following year, less than 2,000 
Brazilians came in here.
    So the goal of his actions were to reduce, if not stop, the 
flow, as opposed to, right now we have--unfortunately, you are 
forced to apprehend, process, and disperse, and that is a huge 
incentive for additional illegal immigration.
    So those are the types of authorities that I want to 
hopefully discuss during this Committee. Those are the types of 
authorities I want to provide you, as Secretary of Homeland 
Security, so you can actually fulfill your mission of providing 
greater security for our homeland.
    So with that I will turn it over to my Ranking Member, 
Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Mr. Chairman, and thank you, 
Secretary Nielsen, for being here.
    I would like to talk about DHS' budget authorities and 
policies in two important areas today, and one is on the border 
as it relates to Border Patrol staffing. I am concerned about 
Border Patrol staffing. I think the men and women of the Border 
Patrol do an amazing job. I think they are brave and courageous 
and hard-working, and this is Law Enforcement Week in 
Washington and I think it is important to recognize all of the 
men and women in uniform across this country who protect us.
    But it is interesting because when you look at the diagram 
of the staffing, it has been on a downward trajectory since 
President Trump took office. In September 2016, there were 
19,828 Border Patrol Agents along the borders, and in April 
2018, it is actually down 400-500 staff, and that is in spite 
of the fact that there is an authorization for many more, as 
you are painfully aware of, I am sure. We have an authorization 
for 21,370.
    So we are hundreds and hundreds lower than we were when 
President Trump took office, and we are many more under for 
what we are authorized, and we keep debating additional 
authorizations as if that is somehow going to solve the 
problem. And we have talked about this in various hearings, and 
I know everyone wants to point it to the polygraph, but it does 
not seem reasonable to me that that is the only reason. You 
cannot keep up with attrition right now. You cannot hire, and 
we have some outrageous contracts for recruitment.
    One of the things I want to talk about today is, are we 
missing the boat here, in terms of improving pay and working 
conditions? I mean, many times people leave a job because they 
do not feel that they are getting adequate pay, or they are not 
being asked to perform in ideal working conditions. And I know 
that it is impossible to make this work always ideal, because 
in law enforcement you have to take what comes. But there is a 
real problem that clearly we are not getting at, and that is 
one of the things I want to talk about today.
    The other thing I want to talk about today is the 
difference 
between Border Patrol Agents and Border Patrol Officers, and I 
do not think most Americans understand that we use those 
terms--and for most people, they probably think they are the 
same thing. I do not know how that happened. I do not know how 
we named them that way, but it is terribly misleading, because, 
of course, the officers are the ones that are the port of 
entries. The agents are the ones along the border.
    Unlike Border Patrol Agents, we are not authorizing 
significantly new port officers. It is very clear, in a report 
I released from the minority staff of this Committee what is 
happening. We found that 88 percent of all the opioids seized 
over the past 5 years were seized at ports of entry (POEs), not 
along the border. So close to 90 percent of what is being 
seized, in terms of dangerous opioids, is happening with our 
border patrol officers at ports, not along the border, not in 
the desert, not along the river, not, as has been described 
sometimes by people in this Administration, that this is a 
problem of people trying to enter illegally with drugs. It is 
actually coming in through the ports. And the fentanyl seizure 
increases on two fronts are in the ports of entry on the 
Southern Border and in mail facilities, and in both instances 
you are also woefully understaffed.
    So these are the areas I want to talk about, because your 
staffing demands are clearly not being met. We have to figure 
out this problem, because people can give speeches and talk 
about turning back illegal immigrants, and say that there are 
too many illegal immigrants coming across, and nobody is 
disagreeing with wanting to secure the border. But when you 
cannot hire the people you need, and when the people you hire 
are leaving more quickly than you can hire replacements, there 
is a more fundamental problem here than just adding more 
personnel, and I would like us to see if we could get to the 
bottom of that today.
    And I would ask that my written statement be made part of 
the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 48.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    It is the tradition of this Committee to swear in 
witnesses, so if you will stand and raise your right hand.
    Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Secretary Nielsen. I do.
    Chairman Johnson. Please be seated.
    Secretary Kirstjen Nielsen is the sixth Secretary for the 
Department of Homeland Secretary and the first former DHS 
employee to become the Secretary. Prior to joining the 
Department, Ms. Nielsen served as the Deputy Principal White 
House Chief of Staff to President Trump. Secretary Nielsen also 
served as the Chief of Staff to then Secretary John Kelly at 
the Department of Homeland Security. Secretary Nielsen served 
in the Bush Administration as a Special Assistant to the 
President, and Senior Director on the White House Homeland 
Security Council from 2004 to 2007. She holds a bachelor's 
degree from the Georgetown University School of Foreign Service 
and a JD from the University of Virginia School of Law. 
Secretary Nielsen.

 TESTIMONY OF THE HONORABLE KIRSTJEN M. NIELSEN,\2\ SECRETARY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Secretary Nielsen. Thank you. Good afternoon Chairman 
Johnson, Ranking Member McCaskill, and other distinguished 
Members of the Committee. I appreciate the opportunity to 
appear before you today and I would like, if I could, to submit 
my full written testimony for the record.
---------------------------------------------------------------------------
    \2\ The prepared statement of Ms. Nielsen appears in the Appendix 
on page 53.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    I want to begin by thanking you. As the Chairman mentioned, 
we greatly appreciate your advancing the DHS Authorization Bill 
earlier this year. As you know, we have not been reauthorized 
since our creation 15 years ago. This results in critical gaps 
that affect our ability to protect the American people.
    I also wanted to thank you, in general, and to the full 
Committee, for being strong supporters of DHS, for listening to 
our analysis of emerging threats, and listening to what we need 
to do our jobs.
    A lot has changed in 15 years. The threats have evolved, 
our enemies have adapted, and our adversaries are resurgent. In 
the meantime, our authorities have not kept pace. So today I 
want to highlight several areas where DHS requests your support 
in order to help us better secure our country, including 
achieving border security and closing immigration loopholes, 
transforming our cyber agency within DHS, authorizing the 
Countering Weapons of Mass Destruction (CWMD) Office, providing 
authorities to help us counter unmanned aerial systems, and 
supporting the President's 2019 budget proposal for DHS.
    First and foremost, border security is national security. 
And while we have made vast improvements, make no mistake--we 
do face a crisis. We see unacceptable levels of illegal drugs, 
dangerous gangs, criminal activity, and illegal aliens flowing 
across our Southern Border. That is why last month we deployed 
the National Guard to our Southern Border. Anyone who thinks 
this is a stunt should look at the stats. Our officers have 
apprehended more than 2,000 people attempting to illegally 
enter our country, and they are interdicting drugs that would 
likely otherwise have gone undetected.
    At the same time, my message to smugglers, traffickers, and 
criminals is clear: if you try to enter our country without 
authorization, you have broken the law. The Attorney General 
(AG) has declared that we will have zero tolerance for all 
illegal border crossings, and I stand by that. Anyone crossing 
the border illegally or filing a fraudulent asylum claim will 
be detained, referred for criminal prosecution, and removed 
from the United States, as appropriate.
    But our National Guard deployment, zero tolerance policy, 
border wall construction, and other actions will only get us 
part way there. We urgently need Congress to pass legislation 
to close the legal loopholes that are fueling this crisis in 
the first place.
    Those coming illegally know it is easier to get released 
into America if they claim asylum. They know that it is easier 
to get released if they are part of a family or if they are 
unaccompanied children. So it should come as no surprise that 
we are seeing a spike in all of these categories. Word is 
getting out. Asylum claims are up 200 percent in the past 5 
years, family unit apprehensions are up nearly 600 percent 
compared to this time last year, and unaccompanied alien 
children (UAC) apprehensions are up more than 300 percent. In 
fact, 5 years ago, apprehensions of families and UACs were less 
than 1 out of every 10 apprehensions. Now they approach almost 
half, 40 percent.
    Some say these increases are the result of spreading crime 
or failing economies in source countries, but in those places 
we are actually seeing economic growth and lower homicide 
rates. The reality is not that their economies are cratering, 
it is that ours is booming. America is the land of opportunity, 
and that is a pull factor for anyone.
    But if we have a legal system of immigration for those who 
want to come here for economic reasons, they should do so 
legally. Asylum is for people fleeing persecution, not those 
searching for a better job. Yet our broken system, with its 
debilitating court rulings, a crushing backlog, and gaping 
loopholes allows illegal migrants to get into our country 
anyway, and for whatever reason they want. This gaming of the 
system is unacceptable. We need urgent action from Congress to 
close these dangerous legal loopholes that are making our 
country vulnerable.
    I would also note, and it is important--I try to say this 
at every opportunity--that the journey itself to our borders is 
risky. It endangers the illegal aliens themselves, the 
communities they pass through, our agents at the border, and 
U.S. communities in our homeland. To be clear, human smuggling 
operations are lining the pockets of transnational criminal 
organizations (TCOs). They are not humanitarian endeavors. 
Smugglers priorities have profits over people, and when aliens 
pay them to get here, they are contributing $500 million a 
year, or more, to groups that are fueling greater violence and 
instability in America and the region.
    There are other options. If migrants have a legitimate need 
to flee, they should seek protection in the first safe country 
they enter, including Mexico. They should not subject 
themselves to a long and dangerous journey.
    This is not, and should not be a political or partisan 
issue, and I hope that we can discuss real solutions today. The 
past four Presidents have pleaded with Congress to act on this 
security challenge, but this Administration is tired of 
waiting. So, in the meantime, we are doing everything within 
our authorities to secure the border and enforce our laws.
    Turning to the cyber domain, I want to make clear today 
that we have reached a turning point in cyber threat evolution, 
where digital security is converging with personal and physical 
security. Cybersecurity can no longer be relegated to the 
information technology (IT) department and thought of as a 
nuisance. Now it is a matter of preserving our lives, our 
livelihoods, and our American way of life.
    One of the most critical parts of the DHS Authorization 
Bill is its elevation of our cybersecurity and infrastructure 
security resilience mission. Transforming the National 
Protection and Programs Division, into a new operational 
component, the Cyber-security and Infrastructure Security 
Agency, is imperative to our success on the front lines of the 
digital battlefield. It will be a clearer focal point for our 
interagency, industry, and international partners. It will help 
DHS recruit and retain employees with critical skill sets, and 
it will clarify DHS's role as national risk manager for 
cybersecurity and critical infrastructure security. I ask and 
thank for the Committee's continued support in the 
transformation of this component.
    I also want to take this opportunity to mention the 
Department's cybersecurity strategy, which is being rolled out 
today. The strategy is built on the concepts of mitigating 
systemic risk and strengthening collective defense. Both will 
inform our approach to defending U.S. networks and supporting 
governments at all levels in the private sector in increasing 
the security and resilience of critical infrastructure. I do 
look forward to discussing that with you further today.
    I am also seeking your support to confront another category 
of evolving threats, weapons of mass destruction. From the 
chemical attacks in Syria to Russia's brazen assassination 
attempt against a UK defector, we have seen the damage that 
these agents can do, and we know that terrorists are not only 
using them on the battlefield but are working to incorporate 
them into Western attacks.
    In December, I announced the establishment of a DHS 
Countering Weapons of Mass Destruction Office, which is now 
leading our response to these threat streams and incidents. But 
the office still lacks critical authorities. While we currently 
have the ability to responds comprehensively to nuclear 
threats, we lack comparable authorities for chemical and 
biological threats. I ask this Committee and all of Congress to 
work with me to permanently authorize this office, and to 
equalize the authorities we possess across all threat vectors.
    Further, our enemies are exploring other technologies as 
well, such as drones, to put our country in danger. Islamic 
State of Iraq and Syria (ISIS) has used armed drones to strike 
targets in Syria, and we are increasingly concerned that they 
will try the same tactics on our soil. We have also seen drones 
used to smuggle drugs across our borders and to conduct 
surveillance on sensitive government locations.
    So today I would like to particularly thank Chairman 
Johnson, Ranking Member McCaskill, Senator Heitkamp, and 
Senator Hoeven for responding to our request and introducing a 
bill to help DHS counter the growing threat posed by UAS. DHS 
needs clear legal authority to identify, track, and mitigate 
drones that could pose a danger to the public and to DHS 
operations.
    Our proposal, and your bill, would authorize DHS and the 
Department of Justice (DOJ) to conduct limited counter-UAS 
operations for a narrow set of important and prioritized 
missions, all the while importantly protecting privacy and 
civil liberties. We are grateful for your leadership on this 
and look forward to working with you as the legislation moves 
forward.
    Finally, I would like to ask for the Committee's support 
for the President's 2019 budget. The budget for DHS requests 
$47.5 billion in net discretionary funding and an additional 
$6.7 billion for the Disaster Relief Fund (DRF) for response 
and recovery to major disasters. This budget sustains and 
strengthens our most critical programs and capabilities. It 
emphasizes protecting our Nation from terrorism and countering 
threats, securing and managing our borders, enforcing our 
immigration laws, preserving and upholding the Nation's 
prosperity and economic security, security cyber space and 
critical infrastructure, and strengthening homeland security 
preparedness and resilience.
    Throughout all of these missions, the budget also 
prioritizes my goal of putting our dedicated employees first 
and maturing DHS operations. I ask the Committee to support 
this budget, to continue supporting our employees and our 
missions, and to continue to help us make our country more 
secure.
    I thank you very much for your time and I look forward to 
your questions.
    Chairman Johnson. Thank you, Secretary Nielsen. Before I 
turn questioning over to Senator McCaskill, I do want to put up 
and draw everybody's attention to a couple of charts. The first 
one is UAC Apprehensions.\1\ The reason I am doing this is to 
make the point that regardless of what a particular law says, 
we, within our laws, our precedents, our legal loopholes, 
create incentives for people to come to this country illegally, 
and I think the first example was the Deferred Action on 
Childhood Arrivals (DACA).
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 61.
---------------------------------------------------------------------------
    Take a look at the number of children coming in here from 
Central America in 2009, 2010, 2011, and 2012. It was 
relatively minimal. And in June 2012, we had the Deferred 
Action on Childhood Arrivals, and you can see what happened 
afterwards. I do not have the figure year-to-date 2018, but I 
think we are on pace for an increase again over 2017.
    The next chart\1\ has 5\1/2\ years of apprehension history 
at the border, and again, nothing is definitive. This is not 
scientific. But it is pretty indicative that when President 
Trump came into office, obviously dedicated to securing our 
border, and Secretary Kelly, I think, said all the right things 
in terms of being dedicated and giving U.S. Customs and Border 
Protection (CBP) and U.S. Immigrations and Customs Enforcement 
(ICE) the authority to enforce the law, there was a dramatic 
drop in apprehensions, which indicates the number of people 
coming in illegally.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 62.
---------------------------------------------------------------------------
    Unfortunately, the reality of what our laws are has gotten 
into the fabric of people's consciousness, and the result being 
people realize that they can still go up to the border, as an 
unaccompanied child, we apprehend them, we process them, we 
disperse them. We have only returned 3.5 percent of 
unaccompanied children from Central America, I believe, if my 
numbers are right, and, of course, we still have the issue of 
people walking up, claiming credible fear, and going through a 
similar type of process, not showing up for their hearings, 
that type of thing.
    So that is the reality of our law. And so a deterrent fact 
worked for about a year, but until we actually change those 
laws, I think we are going to have a real tough time actually 
deterring illegal immigration.
    With that I will turn it over to Senator McCaskill.
    Senator McCaskill. Well, first I would not call the DACA 
recipients, the unaccompanied minors, ``apprehensions.'' The 
vast majority of unaccompanied minors are walking across and 
saying ``help us, please.'' I think ``apprehension'' is a weird 
word to use.
    Chairman Johnson. Well, that is precisely my point, though. 
They can just walk in and turn themselves in.
    Senator McCaskill. The second point I would make is that 
DACA was wiped off the books by this Administration in March of 
this year, and since March, the number of people coming across 
the border has increased, not decreased. So DACA is gone, it is 
no longer the law, and we went from having 36,000 people 
apprehended at the border in February to 50,000 in March, and 
then almost to 51,000 in April. So if DACA was the magic thing 
that was causing this, it seems to me we would see a decrease. 
And, by the way, DACA does not even apply to these kids. None 
of them are qualified for DACA, none of them.
    So I think we have problems securing our borders and I do 
not want to argue about that because I think we all agree that 
we have to secure our borders.
    I want to focus in on this--once again, in your opening 
statement, you talked about the drugs at the Southern Border. 
Ninety percent of the opioids that are being seized are being 
seized at the ports of entry. Correct, Secretary Nielsen?
    Secretary Nielsen. I do not have that exact figure, but 
yes, the majority----
    Senator McCaskill. We got it from you.
    Secretary Nielsen [continuing]. The majority of drugs that 
we see are coming through the ports of entry.
    Senator McCaskill. Well, about 90 percent. Eighty-five 
percent of the fentanyl, which is killing all of our 
constituents every day, 85 percent of it is coming in through 
the ports, not across the Southern Border. So this talking 
point that it is the people coming across the Southern Border 
that are bringing all the drugs, it is like fingernails on a 
blackboard, because it is just not accurate.
    And here is the thing I do not get. There has been zero 
requests for additional port officers, zero, last year or this 
year, to be used at these critical places. You did ask for 60 
this year, but it was all for a training center, not for actual 
deployment into these ports. And according to your own staffing 
studies, you are short by over 4,000 officers at these ports.
    Our citizens are dying from fentanyl every day. Our 
emergency rooms are overloaded. There is not a week that goes 
by that I do not talk to a parent in Missouri who has lost a 
child to a fentanyl overdose that is coming in, in this manner.
    Can you explain why we are continuing to ask for more 
agents along the border when we cannot hire enough, but there 
are no requests for this critical need in our country?
    Secretary Nielsen. Yes. Senator, first I would just like to 
say it is a huge problem. It is one that we take seriously, the 
full Administration. Let me give you a short answer and a long 
answer.
    The short answer is, it is not just the people at the 
ports. So what we have done is we have asked for additional 
technology. As you know, we have now trained canines at every 
port of entry to actually find the drugs. What we find is, far 
and away, the best way to detect the drugs coming through the 
ports is through non-intrusive technology and through canines. 
So we have increased that and we continue to ask for additional 
resources.
    What we have also done, though, is taken the approach to 
try to push the borders out. So rather than waiting for the 
drugs to come here, we are working much more in a forward-
deployed fashion, through Joint Terrorism Task Forces (JTTFs), 
through what we have in Key West, which, as you know, Joint 
Interagency Task Force South (JIATF-South) is a multi, 20-, 30-
country effort to identify and track the drugs before they ever 
reach our shores, before they ever reach the ports of entry. 
You mentioned in your opening remarks the vast increase in 
mail. We thank you for the International Narcotics Trafficking 
Emergency Response by Detecting Incoming Contraband with 
Technology (INTERDICT) Act. We are working with you on the 
Synthetics Trafficking and Overdose Prevention (STOP) Act. We 
need to do more there, absolutely, because that is the other 
way that fentanyl is getting in. So we are trying to look at it 
as a system of systems, in other words, what are all the 
different interdiction points that we can best get after this.
    Another one we have asked for budget on are our cyber 
capabilities within ICE and U.S. Secret Service (USSS), because 
most of these drugs in marketplaces are on the dark web. So we 
have increased our capability to take them down, to track the 
TCOs to their source, and to turn off not only their market but 
their ability to get the drugs.
    So, yes, we have to continue to do more, but we are trying 
to do it in a layered approach so it is a system of systems 
approach.
    Senator McCaskill. Is there a good answer as to why there 
were zero requests for additional port officers when you are 
4,000 staff members under your staffing model, and yet there 
were 750 additional agents requested along the Southern Border, 
even though you cannot combat the attrition that you are having 
now? Is there a good reason as to why there would be that 
dichotomy?
    Secretary Nielsen. The good news I will mention quickly is 
that the attrition is down and we can talk more about hiring, 
because I know that was a concern of yours, in general. But I 
am happy to come in myself, or have folks come and walk you 
through the model.
    The other part about drugs that I did not mention is what 
we tend to see is the drugs themselves will be smuggled through 
the ports of entry--again, we use the technology and canines--
but the people, the actual TCO member who will then sell the 
drugs, come in between the ports of entry, because they know if 
they come in at the port of entry they will be stopped. So, we 
need to stop the people and the drugs.
    But in terms of the staffing model that you are discussing, 
I am happy to come talk to you about it in detail.
    Senator McCaskill. Yes. If you look at your staffing in the 
United States, in terms of mail facilities, it is even worse. 
You have 17 officers covering two shifts in Cincinnati, 
screening almost 46 million import shipments in one year. I 
mean, that is just overwhelming.
    I just think somebody has to get off the political speeches 
and get to the problem, and be pragmatic. All of us want to 
support what you need along the border. But this notion that if 
we can just say, ``Look over here. Look over here. It is all 
about people coming across the border,'' and totally ignore the 
biggest public health crisis this country has ever faced, by 
not adequately staffing the places where the drugs are coming 
in, is just heartbreaking to me.
    Secretary Nielsen. Ma'am, I am not saying that. What I am 
suggesting is that what we find is the best way to identify 
those drugs is through technology and canines, and that is what 
we are increasing.
    Senator McCaskill. But you have to have people to run both 
technology and canines. Every dog has a handler.
    In fact, more than one handler.
    Secretary Nielsen But there is no suggestion that we have a 
lack of people to work with the canines or run the machines. So 
again, I am happy to walk you through, but I do want to make 
clear we are attacking the opioid crisis from many levels, with 
many capabilities.
    Senator McCaskill. I have questions about the air marshals 
but I will hold those until the next round. Thank you, 
Secretary.
    Chairman Johnson. Senator Hoeven.

              OPENING STATEMENT OF SENATOR HOEVEN

    Senator Hoeven. Thank you, Chairman Johnson, and thank you, 
Secretary, for being here today and for the important work that 
you are doing every day.
    I am going to follow up on some of the things we talked 
about at our DHS appropriation hearing, which you were at 
recently. I am pleased to co-sponsor legislation with this 
Committee's leadership that will give you authorities at DHS in 
regard to addressing some of the challenges with making sure 
that, in our airspace, we mange the UAS, unmanned aerial 
vehicles (UAV) and systems adequately, not only to protect 
privacy but also security. That is very important work.
    And my first question is, while we are working with you to 
provide those authorities to track and disable threatening 
unmanned aircraft, and as you develop these counter-UAS 
capabilities, do you have a plan in place to identify promising 
technologies from the private sector and get them validated by 
the Department so that you can use them in this effort, and how 
will you go about testing and evaluating counter-UAS 
technologies?
    Secretary Nielsen. Thank you. So we have learned quite a 
few lessons from the Department of Defense (DOD), which, as you 
know, has this authority already and uses it in theater. So we 
are looking at their testing models. The approach would 
absolutely be to go to the private sector. It often is at DHS. 
It does not make sense to reinvent the wheel when something 
already exists that could fill a need. So we are specifying out 
the requirements, making sure we understand what it is we need 
to do, and then work in conjunction with the private sector. As 
you know, there are many centers of excellence, particularly 
those, as well, in your State. We are doing a lot of work there 
with the university as well, everything from intern programs to 
other capability-building exercises, to help get both the 
people and the technology.
    Senator Hoeven. So you hit the nail on the head there. That 
is where I am going. We are working with you on a time to get 
you out this summer to see what we are doing in counter-UAS, 
not only from the military standpoint but customs and border 
protection, as well as the private sector. And as you develop 
that plan, we think we can be very helpful in terms of you 
seeing some of the things that are being done and then 
leveraging some of that technology development for DHS.
    When Secretary Jim Mattis was in front of our Defense 
Appropriations Committee we also talked about it in terms of 
the military, and in same way they are both seeking authority 
and developing some of these counter-UAS technologies.
    So we appreciate your willingness to engage in that. We 
think it will be very helpful and productive.
    Secretary Nielsen. Well, thank you again for the bill.
    Senator Hoeven. You have an incredible Ops Center in 
California that is managing your unmanned aircraft along the 
border. And so I guess my question, does that Air and Marines 
Operations Center have sufficient capacity to handle all these 
far-flung 
UAS activities, and do you have backup? So both capacity and 
backup--that is another, I guess, area that I know you are 
going to continue to develop and grow. How is that going? Can 
we be of help there?
    Secretary Nielsen. Yes. Thank you. As you say, the Ops 
Center in California allows us to deploy, to understand and 
track where we are using, and to help us with a model for when 
we need to use and where we need to use them.
    At DHS we are trying to use a task force unity-of-effort 
approach, so we borrow help, if you will, from other parts of 
DHS that either have the technical capability to fly, and to 
have the flight hours to use the UAS, but also in terms of 
other models.
    As you know, we use UAS for a variety of things. We use 
them on the border but we also use them for disaster response, 
to understand what it looked like before the hurricane, what it 
looked like after, to determine public assistance. So there are 
quite a few areas within DHS that we use it. We will continue 
to use this center. As you mentioned, redundancy, what we are 
looking at in addition to the underlying capability is making 
sure that we do have that redundancy. That is sort of that next 
phase that we are in now.
    Senator Hoeven. There is an incredible pilot shortage, both 
for manned and unmanned aircraft, and actually, I want to 
commend you, and Commissioner Kevin McAleenan with Customs and 
Border Protection, for developing the Pathways program, which 
we have at Grand Forks, which, in essence, provides jobs for 
young people that are getting their training in aviation at the 
University of North Dakota. So not only does CBP get a quality 
employee, a great young person, and, of course, they need the 
manpower, as we have talked about, but it also helps them get 
an education because they are working for CBP. Great program. I 
think it is a great way to help with the pilot shortage in the 
aviation industry, both manned and unmanned, so I want to 
commend you on that.
    And then I want to kind of switch gears for a minute and 
ask about, for, when you do detain, apprehend unaccompanied 
children coming across the border, as well as others, what are 
you doing to try to address the adjudication process, which is 
such a bottleneck, in terms of trying to address this issue? I 
know you are short there. What can you do, and what are you 
doing to try to adjudicate these individuals?
    Secretary Nielsen. So as I continue to find out every day, 
our immigration process is very complex. As you well know, it 
involves many departments. What we have tried to do is look at 
it from an end-to-end approach. So in the example you just gave 
there are actually about three or four different processes that 
those groups would undertake. In some cases we need additional 
immigration judges. DOJ is working on that. In some cases we 
need additional processes and agreements with other parts of 
the interagency family. We have done that, for example, with 
the Department of Health and Human Services (HHS), to make sure 
that we are appropriately taking care of UACs in their custody.
    And then there are other parts who, depending on if they 
are referred for prosecution we hand them over to the marshals. 
We want to make sure that that is a process that works. And 
then in some cases we use alternates to detention. As you know, 
rather than detaining them we will have check-ins, in some 
cases ankle bracelets, but other ways to make sure that we have 
them detained while they are awaiting their removal.
    Senator Hoeven. Is that working?
    Secretary Nielsen. It does work. So it is a good 
combination. We do it on a case-by-case basis. There are lots 
of criteria that we look at to determine when that is 
appropriate and when that is not appropriate. But again, I 
think it is some of the opening remarks perhaps the Chairman 
made, if you look at UACs, 66 percent of those who receive 
final orders, receive the final orders purely because they 
never showed up for court, and we find that we are only able to 
remove 3.5 percent of those who should be removed, who a judge 
has said has a final. So if we can track them, it is a much 
more efficient process while we wait for the final 
adjudication.
    Senator Hoeven. Thank you, Madam Secretary, and thanks for 
the work you are doing. I know it is challenging work. We 
appreciate it. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks. Again, Secretary Nielsen, welcome. 
Thank you for joining us today.
    Secretary Nielsen. Thank you, sir.
    Senator Carper. We have a couple of recovering Governors 
here on this panel, and I still think like one. And one of the 
things I focus on is I do customer calls in my State. I visit 
businesses, large and small, throughout the year, and our 
Governor and I visited yesterday a fairly large financial 
services company in the northern part of our State.
    Last week I was down in the southern part of our State 
where we do a lot of agriculture. And I do not care where I go, 
I hear employers, large and small, talk about how difficult it 
is to find people who will come to work and actually do a job. 
And I do not care if it is landscaping, I do not care if it is 
food processing, I do not care if it is someone working in 
financial services, but they are having a hard time getting 
people who actually come, can pass a drug test, who have the 
skills, and will come to work.
    And you and I have talked a bit about how to address at 
least part of this challenge. In fact, I read a letter, I 
think, about a couple of dozen Senators who wrote to you and 
urged you to use the authority that we granted in the spending 
bill for the balance of this fiscal year (FY) to go ahead and 
issue additional H-2B visas. And I think the legislation we 
passed we authorized a doubling of that cap, to maybe another 
69,000.
    And I guess my question, this is not going to solve all of 
our problems, for all of the employers, as you know, but you 
have this authority. We hear, literally, this week, from 
companies and they are afraid they are going to lose their 
business because they do not have people come to work and do 
the jobs. They are seasonal jobs.
    So let me just ask, what is the timeline for releasing 
additional H-2B visas and when will you announce the decision? 
How may additional visas does the Department plan to release?
    Secretary Nielsen. Thank you, sir. It is in final 
interagency process. As you know, it involves regulation, so 
the regulation should be ready here shortly.
    Senator Carper. Can I just say something?
    Secretary Nielsen. Yes.
    Senator Carper. I do not mean to be rude.
    Secretary Nielsen. No.
    Senator Carper. I do not mean to interrupt you. That is not 
good enough. I mean, these companies, they are highly seasonal. 
They need the folks now. They needed them a month ago. And 
whenever I talk to you about this it basically we are working 
this, we are going through the process, and so forth. They need 
the workers now.
    Secretary Nielsen. Yes. I understand that.
    Senator Carper. And if they were here they would tell you.
    Secretary Nielsen. I have been collecting evidence. I have 
asked everyone I talk to to give me examples so that I can, in 
turn, package it and send it back to Congress to say, next 
year, please put the ceiling in law. There is no need to tie it 
to an appropriations bill.
    Senator Carper. We gave you the authority to basically 
double----
    Secretary Nielsen. I understand, but----
    Senator Carper [continuing]. The number of visas you can 
issue.
    Secretary Nielsen [continuing]. If you all are----
    Senator Carper. You have the power. This Administration is 
not reluctant about using executive power.
    Secretary Nielsen. If you all are wanting to help the 
companies, which I know you are, the best thing that we can do 
is give them stability and predictability. Putting them into a 
situation each year, where we wait on appropriations cycle and 
we wait on whichever secretary is secretary to make a 
determination, does not give them the ability to plan and keep 
their businesses open.
    So I would respectfully request, again, that Congress work 
with us to put this in law. We know it is a need. Let us just 
put it in law, and then everybody knows what it is, and the 
businesses can plan.
    Senator Carper. We put it in law. We said there are 69,000 
visas that could be issued, now additional visas, and all you 
have to do is do it. There is plenty of need.
    Secretary Nielsen. But, sir----
    Senator Carper. Use that authority.
    Secretary Nielsen [continuing]. If you wanted 69,000 
additional just put it in law and then there is no discretion 
and there is no timing, if it is already in law and everyone 
can plan to it. So as we discussed----
    Senator Carper. That is very disappointing----
    Secretary Nielsen. Well, it should not be, because I think 
we both want to help the companies, so I am telling you, in my 
experience, this is the best way to help them is to give them 
some predictability and not tie it----
    Senator Carper. If our roles were different and you were 
the Senate and I was the Secretary of the Department, we would 
issue those 69,000 visas. We would put a lot of people to work, 
and I will say, frankly, save a lot of businesses from going 
under.
    Let me ask my second question. Thank you.
    The decision to extend or terminate Temporary Protected 
Status (TPS) lies with the Secretary of Homeland Security, as 
you know, in consultation with the State Department. Your 
predecessor and former deputy, Elaine Duke, declined to end TPS 
for Honduras only 4 months ago, in November. Did you speak with 
Ms. Duke or other former administration officials prior to 
terminating TPS for Honduras? Did you speak with Jim Nealon, 
our former Ambassador to Honduras?
    Secretary Nielsen. At the time, before Ambassador Nealon 
and then Deputy Secretary Duke left, yes, I did talk with them.
    Senator Carper. And can you give us some idea what was 
said?
    Secretary Nielsen. No. I cannot, sir. Those are 
predeliberative conversations.
    Senator Carper. Former Secretary Kelly also said, in an 
interview on National Public Radio (NPR), I think it was last 
week, he said, ``I think we should fold all the TPS people that 
have been here for a considerable period of time and find a way 
for them to--a path of citizenship.'' And those are his words 
from last week. Do you agree with General Kelly's remarks?
    Secretary Nielsen. I have said the same under oath.
    Senator Carper. OK.
    We talked in this room, often times, about root causes, why 
people come here from Honduras, Guatemala, El Salvador, and 
other places. They come here because their lives are not just 
difficult, their lives, in many cases, are horrendous. We 
contribute directly to that.
    In the last Administration there was a fair amount of 
discussion about root causes. We put in place--Congress passed 
the Alliance for Prosperity, sort of like a Central American 
version, as you know, of Plan Colombia. I have not heard much 
about what is going on there lately, and maybe you can bring us 
up to speed. As you know, Plan Colombia has taken a long time, 
20 years, but over time it has become very successful. And what 
is going on with Alliance for Prosperity and how are we doing 
there?
    Secretary Nielsen. So as I understand it, sir, the State 
Department is distributing funds, but as you know that is a 
State Department program. What we are doing at DHS is we worked 
in conjunction with State, and the governments of Mexico, 
Spain, Canada, others, last year, to host a conference with the 
Northern Triangle to talk about this issue and talk about how 
to increase their prosperity in addition to security.
    We plan to host such a conference again next month.
    Senator Carper. When and where?
    Secretary Nielsen. In D.C., and we do not have the exact 
date because it will be around the Organization of American 
States, so it is a bit up to them as to which date works, so we 
are still finalizing a date.
    But we are working on some interesting programs to help in 
the same way. One that I have found to be very interesting is 
one with El Salvador, where it is micro-competition and the 
company who wins receives about $27,000 equivalent, which is 
the amount they would otherwise pay a smuggler to come to the 
United States. So it allows them to stay in the country and 
open up a business.
    So we are working on creative ways to try to help. I agree 
with you. We have to help the countries as well with the push-
and-pull factors, and, of course, as you and I have talked 
about before, we also have to increase our overall drug demand 
here so that we do not have that pull factor.
    Senator Carper. All right. As they say at Home Depot, ``You 
can do it. We can help.'' They can do it. We have an 
obligation, I think, a moral obligation to help. Thank you.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman, and thank you, 
Ranking Member McCaskill. And Secretary Nielsen, thank you for 
appearing before the Committee.
    Just a couple of weeks ago I traveled to the U.S. Southern 
Border to meet with Border Patrol Port Officers and ICE 
Detention Officers. We know that people are dying on both sides 
of the border as a result of the drug cartel's narcotics 
trafficking efforts. In 2016, drug overdoses killed more than 
60,000 Americans, while in 2017, Mexico hit a record of nearly 
30,000 homicides, the vast majority of which resulted from the 
drug trade violence.
    These numbers go hand in hand. The drug cartels use 
violence and money to dominate their smuggling route, killing 
many innocent Mexicans and migrants. The cartels' success means 
that more and more drugs make their way into the United States, 
where Americans are dying from overdoses at unprecedented 
rates.
    I was impressed by my visits to El Paso and McAllen, Texas, 
to see the robust screening effort conducted by CBP of incoming 
traffic from Mexico. In fact, in El Paso, just before I 
arrived, they had seized 25 pounds of cocaine because we have 
vigilant, excellent CBP port officers, as I know you know.
    However, stopping the drug cartels is not solely a matter 
of securing traffic coming into the United States. We have to 
attack the cartels' business model. That means stopping the 
flow of both drug money and weapons that travel southbound into 
Mexico from the United States.
    Unfortunately, as I saw on my trip, our southbound 
screening effort for traffic leaving the United States for 
Mexico pales in comparison to CBP's screening of traffic 
entering the United States. We are in a system that our 
officers refer to as ``pulse and search,'' so intermittent 
checking of southbound traffic. We were told by CBP officials 
that they need expanded facilities, more personnel, and updated 
technology in order to try to strengthen our ability to stop 
the flow of guns and money back into the cartels' hands.
    So are you satisfied with the current state of southbound 
inspections along the Southern Border?
    Secretary Nielsen. No.
    Senator Hassan. And what more do you need and what actions 
will you take to address these shortfalls?
    Secretary Nielsen. So the ports, as you know, are very 
different----
    Senator Hassan. Right.
    Secretary Nielsen [continuing]. The infrastructure. So part 
of what we are doing is, I have had multiple conversations with 
the Government of Mexico on this exact issue. I have committed 
to them that we will decrease the flow of guns and money headed 
their direction. But part of the agreement with them is to how 
we can restructure the ports so that we have those secondary 
lanes so that we can pull people over when we suspect.
    Senator Hassan. Right.
    Secretary Nielsen. So we are doing more. We are working on 
agreements back and forth, and then we are working on some 
modeling and data that would lead us to a resource request to 
come to you.
    Senator Hassan. Well, that would be excellent. What I 
heard, loudly and clearly, from our wonderful subject matter 
experts at the border was that they need more people, and I 
think that echoes what you heard from Senator McCaskill. We 
need more people at the ports of entry. We need them southbound 
as well as northbound. And I also know there were some 
infrastructure issues for those second lanes of traffic and the 
like. But I would look forward to working with you on that.
    I also wanted to touch on another issue that we heard about 
on the border. As you know, last year, Congress passed the 
INTERDICT Act which requires DHS to increase the number of 
fentanyl screening devices available to CBP officers. The 
officers have faced a shortage of these devices, which are 
essential to identifying correctly fentanyl and other drugs, as 
well as keeping CBP officers safe from these toxic chemicals.
    Despite the passage of the INTERDICT Act, the port 
personnel I spoke with made clear that the devices were still 
in short supply. When I spoke to them about the INTERDICT Act 
legislation and its mission, they were encouraged by the 
possibility of more devices heading their way but they had 
clearly not received the benefits that intended when we passed 
this bill and when the President signed it into law. Now that 
was, I think, in December.
    So why are not the devices getting into the hands of these 
port officers, what accounts for the delay, and what are our 
plans to get more devices there?
    Secretary Nielsen. Well, first of all, that is 
unacceptable, so you have my commitment to look into it and get 
back to you this week. I am not aware that they do not have the 
devices. They need to be trained.
    Senator Hassan. Yes.
    Secretary Nielsen. They need the protective gear to, as you 
know, touch packages, and they also need the devices.
    Senator Hassan. Right. I saw one of the devices. The issue 
is they just do not have enough for them all to use, and I 
think our intent was to get----
    Secretary Nielsen. Absolutely. I will look into this.
    Senator Hassan [continuing]. This technology to our 
personnel as quickly as we could.
    And then another issue that came up, because I went from 
the border then down to Mexico City. And in my meetings with 
U.S. Embassy personnel in Mexico City, and with key Mexican 
government officials, we discussed how Mexico has to 
significantly grow its Federal police force if it is going to 
have success against the drug cartels. While the Mexican 
government has to find the resources and the will to expand the 
Federal police force, the United States can certainly play a 
key role in helping to train and professionalize the police 
force.
    In a meeting with the National Security Commissioner Sales 
I conveyed how every law enforcement officer in the State of 
New Hampshire attends the same training facility in order to 
standardize and professionalize their training, and I also 
shared how DHS runs the Federal Law Enforcement Training Center 
(FLETC), in order to integrate and standardize law enforcement 
training for over 90 Federal law enforcement units.
    Has DHS considered working with its Mexican counterparts to 
help provide trainings to Mexican Federal law enforcement?
    Secretary Nielsen. Absolutely, and we actually do. We have 
graduated some already from training facilities. We are 
continuing to expand that. We also work with Semar and Sedena, 
parts of the military, which, as you know, play a huge role. We 
have done a lot of training with them. We do a lot of joint 
operations back and forth across the border. But yes, this 
would be a priority for us.
    Senator Hassan. And so when you say a lot of joint 
training, do we open up parts of FLETC to our Mexican 
counterparts? Can they come over and train?
    Secretary Nielsen. We do offer courses for Mexican 
counterparts, yes, ma'am. I will get you the locations. I 
believe it is at FLETC, but if not it is a DHS-owned facility.
    Senator Hassan. OK. Well, thank you very much. I will have 
more questions for a second round but I am happy to yield now. 
Thank you.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you, Secretary Nielsen.
    As I sit here today I am extremely concerned about the 
Administration's repeated attacks on some of the most 
vulnerable communities, and, in particular, children and 
pregnant women, as it relates to the work of DHS. And, in 
particular, under your leadership, DHS has rescinded the DACA 
program, and under the leadership of the Administration, 
predating your arrival as Secretary. DHS has rescinded the DACA 
program, putting 700,000 young people at risk of deportation. 
It has separated 700 children from their parents at the border 
since October 2017, including more than 100 children who are 
under the age of 4.
    The agency has released a directive that allows for more 
detention of pregnant women to immigrant detention facilities. 
The agency has instituted a new information-sharing system 
between the Office of Refugee Resettlement (ORR) and ICE that 
is likely to have a chilling effect on sponsors who otherwise 
would be willing to come forward to provide care for 
unaccompanied minors, and instead of allowing those children to 
remain in detention. The agency has dramatically increased 
enforcement actions that have left an untold number of both 
immigrant and U.S. citizen children without one or both 
parents, leaving some of those children in the child welfare 
system.
    And then just last Wednesday, the Washington Post reported 
that you are considering undermining the Flores Agreement, an 
agreement that ensures standards of care for immigrant 
children, such as the provision of meals and recreation, and 
that they are placed in a least restrictive setting as 
possible.
    In the course of carrying out these actions, the 
Administration has routinely provided misleading information to 
this Committee, and has even gone so far as to claim that 
policies such as routinely separating families are carried out 
in the best interest of the child, which many consider to be 
cruel.
    So my question to you is, last Thursday, when the New York 
Times reported that the President has directed you to separate 
parents from children when they cross into the United States as 
a way to deter illegal immigration, is that correct? Have you 
been directed to separate parents from children as a method of 
deterrence of undocumented immigration?
    Secretary Nielsen. I have not been directed to do that for 
purposes of deterrence, no.
    Senator Harris. What purpose have you been given for 
separating parents from their children?
    Secretary Nielsen. So my decision has been that anyone who 
breaks the law will be prosecuted. If you are a parent or you 
are a single person or you happen to have a family, if you 
cross between the ports of entry we will refer you for 
prosecution. You have broken U.S. law.
    Senator Harris. At an April 26th hearing, I asked Under 
Secretary James McCament to provide me with what percentage of 
cases exist in your agency where a child has been separated 
from a parent or guardian since October 2017, wherein the case 
resulted in trafficking charges. I have not been given that 
information. Can you provide that to me?
    Secretary Nielsen. I do not have it now but, yes, I will 
provide it to you.\1\
---------------------------------------------------------------------------
    \1\ The information requested by Senator Harris appears in the 
Appendix on page 129.
---------------------------------------------------------------------------
    Senator Harris. OK. Can you do that by the end of next 
week?
    Secretary Nielsen. If we have the information, yes.
    Senator Harris. Thank you. I also asked that I be provided 
with what training and procedures are being given to CBP 
officers as it relates to how they are instructed to carry out 
family separation. I have not received that information. Do you 
have that today?
    Secretary Nielsen. No. You have not asked me for it so I do 
not have it, but I can give it to you.\2\
---------------------------------------------------------------------------
    \2\ The information requested by Senator Harris appears in the 
Appendix on page 134.
---------------------------------------------------------------------------
    Senator Harris. No, I asked you for it. OK. So again, by 
the end of next week please.
    Secretary Nielsen. Can you explain a little more what you 
are looking for?
    Senator Harris. Sure. So your agency will be separating 
children from their parents, and I would----
    Secretary Nielsen. No. What we will be doing is prosecuting 
parents who have broken the law, just as we do every day in the 
United States of America.
    Senator Harris. I can appreciate that, but if that parent 
has a 4-year-old child, what do you plan on doing with that 
child?
    Secretary Nielsen. The child, under law, goes to HHS for 
care and custody.
    Senator Harris. They will be separated from their parent. 
And so my question is----
    Secretary Nielsen. Just like we do in the United States 
every day.
    Senator Harris. So they will be separated from their 
parent. And my question, then, is, when you are separating 
children from their parents, do you have a protocol in place 
about how that should be done, and are you training the people 
who will actually remove a child from their parent on how to do 
that in the least traumatic way? I would hope you do train on 
how to do that. And so the question is, and the request has 
been, to give us the information about how you are training and 
what the protocols are for separating a child from their 
parent.
    Secretary Nielsen. I am happy to provide you with the 
training information.
    Senator Harris. Thank you. And what steps are being taken, 
if you can tell me, to ensure that once separated, parent and 
child, that there will be an opportunity to at least sustain 
communication between the parent and their child?
    Secretary Nielsen. The children are at HHS, but I am happy 
to work with HHS to get you an answer for that.\1\
---------------------------------------------------------------------------
    \1\ The information requested by Senator Harris appears in the 
Appendix on page 135.
---------------------------------------------------------------------------
    Senator Harris. And I would like it to be broken down 
between what you doing for children over the age of 4 and what 
you are doing for children under the age of 4.
    On May 4th, the President of the American Academy of 
Pediatrics issued a statement on behalf of the organization, 
stating that he is appalled by a new policy by the DHS that 
will forcibly separate children from their parents, and went on 
to talk about that they will create stressful experiences like 
family separation, which can cause irreparable harm, disrupting 
a child's brain architecture, affecting his or her short-and 
long-term health. And these findings are generally shared by 
the American Medical Association (AMA) and many child welfare 
advocates and professionals.
    Last Tuesday, before Senate Appropriations, you testified 
that you are ``working with the community to understand the 
science as it relates to the impact of such separation.'' Do 
you dispute that separating a child from their parent will 
create and cause trauma for that child?
    Secretary Nielsen. I believe the question that was asked to 
me, if I was aware of the information, and what I said is I 
would be happy to look into the studies. Again, we do not have 
a policy to separate children from their parents. Our policy 
is, if you break the law we will prosecute you. You have an 
option to go to a port of entry and not illegally cross into 
our country.
    Senator Harris. Secretary Nielsen, we do have a policy in 
this country, as a general matter in the justice system, that 
if someone breaks the law they will be prosecuted. We also have 
protocols about what is allowable and not in connection with an 
arrest, in connection with detention in a jail, in connection 
with how many hours a day with which we can bring charges or 
not. So to suggest that the only law in this country relates to 
what you do at the end is really misleading.
    Secretary Nielsen. But that is not what I just said, ma'am. 
If you are asking if we train and we take care of them and we 
work with HHS, we now have a memorandum of agreement (MOA) so 
that we can make sure that the children go to people who are 
actually family members and who are not traffickers and who 
will not abuse them.
    Senator Harris. Right. So those are the policies I would 
like to see.
    Secretary Nielsen. OK.
    Senator Harris. Thank you.
    Chairman Johnson. Before I go to Senator Lankford, I think 
is a good time, actually, Senator Daines, I see you showed up. 
This would be a good time to explain a little bit more. When 
you say that we do this every--prosecutors, law enforcement, 
local law enforcement does this every day. So let us consider 
maybe a drug dealer, single parent, with children in the home. 
That drug dealer is arrested. Is there any difference, really, 
in terms of how DHS handles somebody that you are going to 
prosecute, that you are going to detain, somebody who has 
entered the country through other than the ports of entry, is 
there any difference in terms of how DHS would handle that 
situation, those children, than what local law enforcement, 
other than different jurisdictions may have different rules?
    Secretary Nielsen. Right. So, broadly speaking, not to my 
knowledge. The idea here is to make sure that the now 
unaccompanied children, or the children whose parent is 
incarcerated because they broke a law, are cared for. So we 
transfer those to HHS, and as I just mentioned, we have now 
worked on a memorandum of agreement to ensure that those 
children are not being, in turn, placed in the hands of 
traffickers, criminals, etc.
    Chairman Johnson. Again, I want to underscore, that only 
applies to family units, a parent, that crosses illegally, 
between the ports of entry. If they show up at the port, claim 
asylum, those family units are kept together because we have a 
process for that.
    Secretary Nielsen. In current policy, yes, sir.
    Chairman Johnson. OK. Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman. Secretary Nielsen, 
it is good to see you again. Thank you for your service to 
secure our homeland. I am thankful for the leadership you are 
showing, in terms of deploying National Guard resources to 
secure our borders, building the first border wall in 10 years, 
establishing a national vetting process to better target those 
with criminal intent who seek to enter this country. As a 
father of four children myself, I sleep better knowing you are 
leading and securing our homeland. Thank you.
    I want to switch gears and talk about flooding in my home 
State of Montana. We had a tremendous snowpack this winter. The 
skiers were thrilled. As a fly fisherman, I cannot wait once 
the, as we say, the rivers blow out. They clear up, we get on 
the rivers. But in the meantime we have flooding going on in 
Montana. We are facing severe flooding due to rapidly melting 
snowpack in our mountains, combined with some recent heavy 
rainfall. Surging rivers and streams affect our communities 
across our State, forcing families from homes, schools, 
businesses. Roadways are closing. In fact, Montana has declared 
a statewide flooding emergency and mobilized State resources, 
but more flooding is yet to come and Federal aid is going to be 
needed.
    How is DHS assisting these affected communities in Montana 
now, and how can your department provide support in the coming 
months as we deal with additional flooding, as well as, believe 
it or not, the upcoming wildfire season?
    Secretary Nielsen. Yes. I cannot believe we are there again 
already, between that and hurricane season.
    So what we are doing at the Federal Emergency Management 
Agency (FEMA) is we are trying to increase the capability and 
capacity, in general, toward resilience. So, in part, that 
means we are using things called integrated management teams. 
We are pushing people out into the communities to help them 
build their capacity for instant management. We have conducted 
various reviews on alert warning. We are reviewing the 
equipment needs and requirements, and then, as you know, in 
certain cases, once the thresholds of the Stafford Act are met, 
under a national disaster, there are funds available from the 
Disaster Relief Fund. So it is a combination of on-the-ground 
capacity-building exercises, etc., and then funding, of course, 
when the thresholds are met.
    Senator Daines. Thank you, and I know we will be in touch 
with your team as we continue to, excuse the metaphor, navigate 
through these difficult times right now in Montana.
    I want to switch gears now and talk about the National 
Guard on the Southwest Border. As you point out in your 
testimony, there is probably no issue more important for DHS 
right now than border security and immigration. According to 
CBP, Southwest Border migration numbers for April, the number 
of illegal border crossers more than tripled in April 2018, 
compared of April 2017. Securing our borders is crucial to 
protecting the American people and upholding the rule of law.
    I am grateful to hear from you today in response to some of 
the questions. It is about the rule of law. It is what sets 
this great national apart, is freedom and the rule of law. You 
are doing an admirable job and I know you and your workforce 
are working tirelessly to get the job done.
    More resources are needed, however, and I support President 
Trump's call last month for the deployment of the National 
Guard to enhance CBP's capacities out at our Southwest Border.
    My question for you is, what further steps will be taken by 
the Administration to mitigate illegal activity at the border?
    Secretary Nielsen. Many things, as much as we can do within 
the law. So we are changing regulationss to the extent that we 
can to clarify particular issues. We are doing all this in the 
protection of UACs, like the memorandum of understanding (MOU) 
that I just mentioned. We are working with the border 
Governors. As you may know, I have had lots of conversations 
and I talk with them monthly--Governor Greg Abbott, Governor 
Doug Ducey, Governor Susana Martinez, Governor Jerry Brown--not 
just on the deployment of the National Guard but what else we 
can do with local communities, with border sheriffs, to make 
sure that when we identify criminal aliens that we can 
apprehend them and remove them.
    We also are working through some pilot projects with Mexico 
on ways that we can prevent the flows that do not have a 
legitimate claim to come to this country. Again, I encourage 
all migrants, if they have a need to flee, to seek shelter in 
that first safe country that they encounter. So we will 
continue to do all we can on our side.
    Senator Daines. Thank you. The issue of children came up in 
the last line of questioning and I want to probe that a bit 
more with you. I have introduced legislation with my colleague 
from New Hampshire, Senator Hassan. It is called the Homeland 
Security for Children Act, which would simply ensure that DHS 
includes input from organizations representing the needs of 
children when soliciting stakeholder feedback and developing 
policies.
    The question is, do you believe it is important to identify 
and integrate the needs of children into the policies and 
activities of the Department?
    Secretary Nielsen. I think it is our duty to protect them, 
to keep them in a safe environment, to provide for them when 
they are in our care, and to make sure that within that 48-hour 
period when we transfer them to HHS that we do all we can to 
help HHS then take care of those children. Yes, I do.
    Senator Daines. One thing I have seen, and I appreciate 
your response there, is I think we need to make sure that the 
necessary steps are in place so that children are kept safe 
during emergencies. We think about preparedness. Sometimes we 
do not always remember in the policies the importance of 
children and thinking about their unique needs.
    Last, I want to talk about border wall contractors. A 
number of State and local governments are considering 
legislation that would require them to discriminate against 
companies involved in the design or construction of any 
extension of the wall along our Southern Border. Further, some 
cities are targeting contractors that provide database services 
supporting Federal immigration priorities. This type of 
legislation could obstruct the Federal Government's lawful 
functions and cause private companies contracted with the 
Federal Government to hesitate in fulfilling the critical roles 
asked of them.
    My question is, what is the position of the Department on 
this issue, and how do you plan to respond?
    Secretary Nielsen. So we continue to work with border 
Governors and government officials. I would just say that 
border security is the most basic and necessary requirement of 
a country to protect its citizens, so I do worry that the 
either intended or unintended consequence of this would be that 
the Federal Government cannot do its most basic duty to protect 
its citizens. But we are also trying to work with them to 
explain and find out what the real concern is, because it is 
not always clear on its face what the concern is, other than 
they just do not agree with us enforcing the law.
    Senator Daines. Thank you, Secretary Nielsen. Thanks.
    Chairman Johnson. Senator McCaskill has a question for you 
real quick.
    Senator McCaskill. Yes. I just want to clarify something. 
The Chairman wanted to equate the process by which children are 
separated from their parents to a similar process when someone 
is arrested. Let us just take a community where I was the 
elected prosecutor for years. When a child is left without a 
parent because of breaking the law, in the State system, the 
police handed them over to the social service agency, who then 
has primary responsibility, through social workers, placement, 
and a child abuse hotline. They are always in contact with the 
State authorities until there is some kind of permanency to 
their legal situation.
    Let us compare and contrast what happens with DHS. DHS 
keeps the children for maybe 48 hours, and hands them off to 
HHS. HHS then tries to put them somewhere, and rarely does 
household visits for sponsors. And then they are done after 
they find a sponsor. There is no handing off to the State 
social service agencies. That is why nobody is showing up for 
the hearings, Secretary. It is because it is not like the State 
system.
    I can assure you that if a child was supposed to show up 
somewhere that was in the State's care, the phone would ring, 
or the child abuse hotline would ring, or a teacher would be 
required to call in. That is not happening with these kids. 
That is why they are not coming to court. Nobody is paying any 
attention.
    So I just could not let it pass that we were equating those 
two systems, because having a great deal of experience in one 
of them, having handled child abuse cases for a number of 
years, nothing is further than the truth. And there is still 
not a joint concept of operations (CONOPS), which was promised 
to Senator Portman and I at a hearing in 2016, as to how we are 
going to alleviate this problem.
    So once you start taking these children, I do not think any 
record should reflect that somehow we are--you are confident, 
or anybody is confident that they are being placed in a safe 
and secure environment and being appropriately managed. 
Because, frankly, if they were, they would come to their 
hearings.
    Secretary Nielsen. Could I just respond to that?
    Senator McCaskill. Sure.
    Secretary Nielsen. I think the comparison I was trying to 
make was in the separation of families. It is not something 
unique we do with illegal aliens when someone has broken the 
law.
    Senator McCaskill. There is no question, you have to 
separate children from families when there has been a 
violation.
    Secretary Nielsen. Yes, ma'am. But having said that, I just 
want to say I could not agree with your concerns more, period. 
We are working with HHS. We have done this MOA. I will look 
into the CONOPS. I do know that we have revised it, because we 
now, in conjunction with HHS, are requiring various checks be 
made to ensure that the sponsor truly does have a custodial 
relationship and is not a traffickers or an abuser. And, as you 
know, we have terrible instances of that occurring.
    Senator McCaskill. Terrible.
    Secretary Nielsen. It is not acceptable.
    Senator McCaskill. The fact that there is not a CONOPS, the 
fact that there is no joint concept of operations, and we are 
upping the number of children we are taking from families is 
outrageous.
    Secretary Nielsen. So there is a CONOPS. What I am 
suggesting is----
    Senator McCaskill. [Off microphone.]
    Secretary Nielsen [continuing]. Yes, and I appreciate that 
and we will get it to you. We are updating it because we now 
have this MOA with HHS that requires both of us to share 
information so that we can vet the sponsor who appears to take 
the children, especially when that sponsor is not a parent.
    Senator McCaskill. It is not being done now.
    Secretary Nielsen. Yes, so this is why we just signed this 
MOA. I could not agree more. We have to do more.
    Chairman Johnson. I would completely agree the State is 
going to be better than the Federal Government in just about 
anything it does, and the point I was making, in terms of 
DACA--I mean, I completely understand that that does not apply 
to current arrivals, but they do not know that, that DACA was 
used as a spark. They were told, once they get there they can 
stay. By the way, they have. 96.5 percent of unaccompanied 
children from Central America have stayed. They use social 
media. That is communicated down to Central America and more 
come. So it is that flood into a Federal system that has 
created the crisis. So again, the goal of policy ought to be to 
reduce the flow, like Secretary Chertoff did, in Brazil. 
Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Yes. I do not think I can let that go 
without at least some comment.
    DACA, if you say it was a magnet that pulled people because 
they are so connected, they certainly are connected enough to 
know that the program has been terminated. So we know that 
Central America presents a unique problem as it relates to 
unaccompanied minors, because of a law that was passed by the 
U.S. Congress. So the wringing of hands about what is, in fact, 
the draw into this country, it is critically important that we 
look at this from what is driving the factors below. And you 
and I have had long conversations about the need to work with 
the other countries in the region to allow people to refugee in 
place, to allow people to live with their families in a safe 
location, somewhere within the region.
    We are on the verge of having a very anti-American 
government elected in Mexico. It is going to make your job even 
harder. And so we can talk about why that is. I think we should 
just recognize it is going to happen. So we have to prepare for 
a relationship change that we are going to have, that is going 
to create an even greater problem.
    But we have to be humanitarian about how we deal with this, 
especially as it relates to children. Now we all sat at this 
dais about a month ago, and I think I said we are the worst 
foster parents in the world. We do not keep track of these 
kids. And we are begging you, if, in fact, this is going to be 
the outcome, where we are separating children, in some cases, 
infants, from their parents, we need to know where these kids 
are.
    Secretary Nielsen. I could not agree more.
    Senator Heitkamp. Well, that has not been----
    Secretary Nielsen. Again, in the last Administration there 
was no MOA to even screen or vet sponsors. I have put that in 
place.
    Senator Heitkamp. I am not talking about politics here.
    Secretary Nielsen. No. I am not either.
    Senator Heitkamp. I am talking about change.
    Secretary Nielsen. I am saying what we have done to improve 
the situation, because you are exactly right. We owe more to 
these children to protect them. So I am saying I agree. We have 
taken steps and we will continue to strengthen what our 
partners do to protect these children. They are not in our 
custody but I take it upon myself to work with my interagency 
partners to do this.
    Senator Heitkamp. And I would share Senator Harris' concern 
about making sure people are trauma-informed and trauma-
trained, because what you are doing to children when you take 
them away from their parents is the most trauma-impactful thing 
you can do to a child. So let us be good people and good 
Americans as it relates to how we treat children.
    But I do not want to use my whole time. I want to talk a 
little bit about the Northern Border strategy. You probably 
figured this is going to come up. You are 5 months late in 
getting me the plan. When is that plan going to happen?
    Secretary Nielsen. It should be out this week.
    Senator Heitkamp. OK. Thank you. I will look forward to 
seeing it and thank you again. I think, again, we have such a 
hyper focus on the Southwest Border, a hyper focus on the open 
areas of the Southwest Border, and as Senator McCaskill pointed 
out, a lot of the drug traffic is coming through the points of 
entry. We know that that is a problem that we need to address.
    And that brings me to the second thing I want to get at, 
which is technology, and understanding what that technology, 
what is available, what we are doing right now to train, what 
we are doing right now to provide resources. I want to 
associate myself with the remarks of my senior Senator, Senator 
Hoeven. We appreciate the work that is being done to train 
pilots. I think that we have a great resource in North Dakota 
with the co-location of Customs and Border Protection, air and 
marine, along with the airbase, along with a training center 
for training pilots, along with a lot of great law enforcement 
folks who are working to try and figure out how we can embed 
and use new technology. So I again invite you to come up to 
North Dakota to take a look.
    Secretary Nielsen. Yes. I am looking forward to it.
    Senator Heitkamp. Yes. And I think you will find some very 
interesting things up on the border.
    One of the unique problems that we have in North Dakota, as 
you know, is hiring and retention. That is not just a problem 
in North Dakota but it is a problem across the agency. Senator 
McCaskill, I think, made a great point on retention. What do 
you think is going to improve retention and how do we get a 
better answer on how we can deal with the attrition challenge 
that you have?
    Secretary Nielsen. Yes. This is, for obvious reasons, all 
the ones that Ranking Member McCaskill mentioned and you did as 
well, important, but it is also important just for basic 
morale, right? It is important for us to be able to do our job. 
So I do take this very seriously, and of my six priorities one 
is what I call Employees First, and this is a big chunk of 
that. What it is we can do to make them willing to continue to 
serve.
    Senator Heitkamp. Why do you think they are leaving now?
    Secretary Nielsen. I think, one of the things that we have 
found over the last year is the system was not built for 
mobility. So if you are in rural--it is not even rural--if you 
are in an area where there is just not a lot of infrastructure, 
particularly on the Southern Border, if you are a young CBP 
agent you might be willing to do that for a few years, but if 
the system cannot allow you to move, you might just decide to 
leave. So one of the things we have built in is that mobility. 
We have also built in cross-training. We find that particularly 
in some of the areas, what you were trained to do is not 
necessarily what you do, because of the limited----
    Senator Heitkamp. One of the pieces of advice that Senator 
Tester used to provide, and I used to follow up on, is there 
are people who live up there.
    Secretary Nielsen. Absolutely.
    Senator Heitkamp. There are people who live on the northern 
tier. They like it.
    Secretary Nielsen. Yes.
    Senator Heitkamp. That is home. They hunt. They fish. They 
know exactly what they are doing. They have friends and family. 
We need to do better recruiting from the local people who live 
there, who have lived that lifestyle, because if you move 
someone in from Tennessee, let us say, and then an ICE position 
comes open in Tennessee, we will lose them from Border Patrol. 
And so we have seen this. We have talked to the folks up there. 
Very much would like to see you look at recruiting within the 
area, because those are folks who are used to that lifestyle.
    Secretary Nielsen. Really quickly on that one, we found 
that we were not very good at that, which is partly why we are 
working with Accenture. And I know the Ranking Member had some 
concerns that she mentioned at the front. I am happy to come 
and speak to you both about that. But part of the concept of 
that Accenture contract is to go into those areas and recruit 
there, for people that we need there, because of exactly what 
you are saying.
    Senator Heitkamp. No, I think you would be more successful 
in terms of retention, and I am out of time. I will probably 
submit some additional questions for the record, and you 
probably know I am concerned and aware of some challenges we 
have with the border sheriffs. That is a critical relationship, 
both in the Northern Border and the Southern Border, and we 
want to follow up on some of the issues that we have had with 
the local law enforcement.
    Secretary Nielsen. Yes, and Mr. Chairman, do you mind if I 
just respond to that quickly?
    Chairman Johnson. No. Fine.
    Secretary Nielsen. You and I had a brief conversation. I 
could not agree more. I spoke with the sheriff in Cochise 
County. I have met with a variety of sheriffs when I was in 
Texas. I met with the National Sheriffs Association last week.
    Senator Heitkamp. Good.
    Secretary Nielsen. I will continue to meet with them. But 
yes, we look to their expertise, their experience. They are a 
very important part of understanding the needs.
    Senator Heitkamp. And they can be an incredible resource 
for you in terms of intel if you have a relationship with them.
    Secretary Nielsen. Yes. I agree. Thank you.
    Senator Heitkamp. Thank you.
    Chairman Johnson. No, I just want to offer clarification. I 
think, Senator Heitkamp, you said DHS does this to the children 
or families. When a parent brings a child illegally into this 
country, between the ports of entry, DHS is responding, 
reacting to that illegal act. I hate to give advice but if 
those parents want to do it legally they can go right up to the 
port of entry, claim asylum, and then, basically have to make 
the case. But they are coming across illegally because they do 
not want to have to go through that process, the legal process.
    So Secretary Nielsen, DHS is enforcing the laws, and if we 
do not like the laws we are going to have to try and change 
them. But again, it is not what DHS is doing to them. DHS is 
forced to react and is forced to follow the law.
    Secretary Nielsen. Yes, sir.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. Secretary Nielsen, 
thank you for being here.
    Secretary Nielsen. Good afternoon.
    Senator Peters. Secretary Nielsen, I think you are well 
aware that probably the most significant threat that we have to 
our national security comes from cyber attacks, and we are 
seeing these cyber attacks increase in frequency as well as in 
sophistication.
    And as this Committee has discussed this issue on numerous 
occasions, we always talk about a whole-of-government approach, 
that we have to bring all of our resources to bear in order to 
thwart this threat. And yet often times we operate in silos. 
Different agencies are doing their own thing and there is not 
any kind of communication between them. So there has been a 
pretty concerted effort to try to harmonize the 
responsibilities as well as understand those whole-of-
government capabilities that may exist across the breadth of 
government.
    And I know that DHS, along with a number of other civilian 
and military entities, have certainly made some significant 
progress in this area, but we also need to have leadership from 
the White House to make sure that this actually happens. And 
that is why I was disappointed to hear reports that National 
Security Advisor John Bolton is considering eliminating the 
White House Cyber Coordinator position within the White House.
    What impact would this change in leadership have, do you 
think, on the national cyber mission?
    Secretary Nielsen. So I have not had a conversation with 
Ambassador Bolton about that particular issue. What I would 
suggest, at least from a DHS perspective, we have strengthened 
all of our relationships with the silos that you referenced, to 
make sure that we are bringing all to bear, not just through 
sharing of capacity and capabilities but clarifying and 
reclarifying our roles and responsibilities from policy 
efforts.
    So your underlying point is valid. It is top-of-mind for 
me, because no one entity has all the authorities, capability, 
and capacity to address this, so we have to bring everything we 
have to bear.
    Within DHS, I find that we have pockets of excellence 
within the Secret Service, within ICE, within the U.S. Coast 
Guard (USCG), within the Transportation Security Agency (TSA), 
and, of course, within NPPD. So we are trying to knit all that 
together so that we have best-in-class services through that 
collective defense model.
    Senator Peters. So you mentioned you were not aware of 
this--or statement that John Bolton made. Could you tell me a 
little bit about the kind of coordination that goes on between 
DHS, cyber leadership, and the White House, in relation to 
cybersecurity? Is there ongoing communication coordination?
    Secretary Nielsen. Since Ambassador Bolton has come onto 
the job, he and I speak regularly. We spoke over the weekend 
about events that were emerging in Tennessee, for example, in 
the alleged cyber attack. So we continue to work together. If 
there are any issues that we ever have that we need to raise to 
their attention we do so. We are working hand in glove on the 
national cybersecurity strategy. We released the DHS 
Cybersecurity Strategy today. We did that in close coordination 
with the National Security Council (NSC).
    Senator Peters. It has been reported that the United States 
may see increased cyber attacks from Iran in the coming weeks 
and month. Has the Department seen an increase in Iranian cyber 
attacks in the past week?
    Secretary Nielsen. We have not but we are looking. We have 
something, a posture that we call Shields Up. We are in close 
coordination with State and local governments, private sector 
critical infrastructure owners and operators, and the intel 
community, constantly asking and assessing to see if we see any 
uptick in activity.
    Senator Peters. So you are anticipating it may be a 
reality.
    Secretary Nielsen. We are anticipating it is a possibility 
and, therefore, we will be prepared.
    Senator Peters. I would discuss the Northern Border, pick 
up on Senator Heitkamp, coming from a Northern Border, up in 
Michigan. We have two of the Nation's busiest border crossings 
in Michigan, one up in Port Huron, with Canada, and Sarnia down 
in Detroit. We have had a number of issues in terms of staffing 
and capacity. Those border crossings are particularly important 
from an economic standpoint, and I know the difficult balancing 
act that the Department has to keep us safe, at the same time 
making sure that commerce moves efficiently across those 
borders.
    Right now we are in the process of building a second bridge 
in the Detroit-Windsor, which is one of the top crossings in 
the country, North America, the Gordie Howe Bridge. In fact, it 
has been funded by the Canadian government but looking for 
resources from the United States to make sure that our Customs 
plaza is fully funded. Do I have your commitment that that will 
be fully funded and properly staffed so that we can achieve 
that twin goal of keeping us safe while, at the same time, 
allowing commerce to move efficiently across that border?
    Secretary Nielsen. Yes. We would like to facilitate legal 
trade and travel, as you know. I am not as familiar with this 
but, yes, we would want to make sure that it allows legal trade 
and travel and facilitates that.
    Senator Peters. Well, I would like to have a further 
discussion with you----
    Secretary Nielsen. Happy to.
    Senator Peters [continuing]. Or your staff as well. This is 
a critical issue for us, and I can appreciate you may not be 
fully up to speed on this particular one, but it is one that I 
think we need to pursue, and I would love to have that 
conversation.
    And it goes, actually, with the other border crossing, 
which is the Blue Water Bridge, which is between Sarnia and 
Port Huron. That is a border crossing that needs to be 
expanded. In fact, the government came in and condemned a 
number of houses with eminent domain, cleared out land because 
of a Customs expansion that should have taken place years ago. 
It still has not occurred. It is an incredibly problematic 
situation, to say the least, for the city of Port Huron. And it 
is a piece of critical infrastructure. Do you have any idea 
when that plaza will be completed, and is that something that 
you are prepared to talk about today?
    Secretary Nielsen. No, but we will get you an answer this 
week.
    Senator Peters. Well, I would appreciate that as well. We 
will follow up.
    The other final piece of major infrastructure in Michigan 
is the Soo Locks, which connect Lake Superior with the rest of 
the Great Lakes system. DHS reported, in 2016, that if the Poe 
Lock, which is the major lock that can allow the large 
freighters to move through there, if anything happens to that 
lock, within a matter of weeks the entire U.S. economy would go 
into recession. You would have production facilities shut down, 
factories, mines. Auto parts would have difficulty being 
constructed. So it certainly fits the definition of critical 
infrastructure in no uncertain terms.
    We had President Trump in our State recently, who made a 
statement that we are going to fix the Soo Locks, we are going 
to construct the additional lock that we have been looking for, 
for some time. Could you give us an update on that?
    Secretary Nielsen. Sure. So what we have done at DHS is 
look at the modeling, because, as you say, it is a concentrated 
point of dependency, and some might even argue it is a single 
point of failure when it comes to trade. So we are doing the 
modeling and then we are also working with our counterparts in 
Commerce, the Council of Economic Advisors at the White House, 
to make sure that we understand all the consequences.
    It is critical infrastructure. We treat it as such, so we 
are continuing that voluntary relationship to make sure that we 
have the redundancy and resiliency built in. But I am happy to 
come give you more detailed brief about what specifically we 
are doing.
    Senator Peters. Well, I would like a brief on what has 
happened since the President's statement. We have the report 
from DHS, which clearly states that it is critical 
infrastructure----
    Secretary Nielsen. Yes.
    Senator Peters [continuing]. That could lead to recession. 
The Army Corps of Engineers are finishing a study that we 
expect to see shortly, that will also come to what I believe 
will be a similar conclusion. But it is something that we need 
to focus on, and look forward to meeting with your folks to 
talk further about it.
    Secretary Nielsen. Thank you.
    Chairman Johnson. I agree, Senator Peters, on that one. 
Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman, and Secretary 
Nielsen, thank you for----
    Secretary Nielsen. Good afternoon.
    Senator Portman [continuing]. Being here today, and for 
being here at a critical time. You are in the process of 
putting your own imprint on a massive organization that was 
created by Congress some 16 years ago, and has never been 
reauthorized since. And I appreciate the fact, Mr. Chairman, 
that you and the Ranking Member, Senator McCaskill, have worked 
hard on an authorization bill, again, for the first time in 
almost two decades. It is overdue, in my view, and I think 
there are a lot of positive things in that bill.
    So we appreciate your working with us. I asked you earlier 
today, in a conversation, what you thought about it, and I 
think you are generally supportive of it.
    Secretary Nielsen. Yes, sir.
    Senator Portman. And I hope you will work with the Chairman 
and Ranking Member to get that not just to the Senate floor for 
a vote but to get that signed into law.
    There are a number of provisions in that bill that I feel 
strongly about. One is some of my provisions to strengthen 
security for nonprofit institutions, focusing research on some 
emerging threats, as was talked about earlier, in the 
cybersecurity space, also in chemical weapons, as well as some 
important requirements to combat the illicit opioids that are 
coming into our country.
    We here, in my State of Ohio, have had epidemic levels of 
opioid addiction and overdoses and deaths, starting with 
prescription drugs and heroin, and now it is this synthetic 
heroin, or synthetic opioids, including fentanyl, carfentanil, 
and others. It is now the big problem. I mean, we had 60 
percent of the people who died in Ohio last year, our worst 
year ever, died because of fentanyl. Locally, in Columbus, 
Ohio, they just issued a report from that county, Franklin 
County, that two-thirds of their deaths last year were 
attributable to fentanyl.
    It is coming in through the U.S. mail system, primarily. 
That is what all the experts say, including testimony before 
the Committee and before our Permanent Subcommittee on 
Investigations (PSI). So our own United States mail system is 
providing the conduit for this poison. It is not coming over 
land from Mexico, as heroin was. At least the vast majority of 
it is not. Most of it is coming from China. We know where it is 
coming from. We know how it is coming.
    And we know that the post office, unbelievably, does not 
require the same information on packages as other private 
carriers have to in order for law enforcement to identify those 
packages. So the post office has about 900 million packages a 
year, by far the most, more than FedEx, UPS, DHL combined. 
Again, those private carriers have to give law enforcement, 
including your good folks at Customs and Border Protection, the 
information. They can then find these packages that are 
suspect, where it is from, what is in it, where it is going.
    The post office, for the most part, does not have that, 
because we do not have a requirement on them. The requirement 
was put in place on the other carriers right after September 
11, 2001 (9/11), and the thought was that the post office would 
do it also because we required that they do a study of it. They 
said it would take them some time. It has been 16 years and 
they are still studying it.
    So our legislation, that many Members of this Committee 
have strongly supported--I see Senator Hassan here, for 
instance. She has been a big advocate for this, as have 
others--is just to say let us make the post office also give 
your people what they say they need, and they have testified 
before us here that they need it and need it badly.
    Senator Carper, who was here earlier, and I conducted a 
year-long investigation into this issue through the Permanent 
Subcommittee on Investigations. We were able, by using some 
undercover folks from your Department--thank you for lending 
them to us--to find out some really shocking news, which is 
that people are selling this stuff online, freely, not worried 
about the enforcement side, and saying if you send it through 
the post office it is guaranteed. If you send it through a 
private carrier, it is not.
    And the bottom line is in this authorization legislation, 
we have some good things about helping with regard to working 
with the Chinese government, through information sharing, but 
the central issue here, the real gap in our defenses against 
this drug coming in, is the delivery method.
    So I hope you will work with us. What your people will tell 
you is it is like finding a needle in a haystack if you do not 
have this information. If you have it, at least you have a 
fighting chance of both stopping some of this poison from 
coming in, that is the most powerful, potent drug ever, 50 
times more powerful than heroin, but also increasing the price 
of the drug just by reducing some of that supply, because one 
of our problems right now, in my State and others, is the fact 
that this is not only readily available, it is relatively 
inexpensive.
    You are aware about the legislation because we have talked 
about it, the STOP Act. You are aware of the fact that we are 
trying very hard to get this through the process right now, not 
just this Committee, which has done, I think, a very good job 
on doing the research, but the committee of jurisdiction.
    I guess my question to you would be, are you willing to 
help us to get this done, and, in particular, we have heard 
rumors that the House may move on something that is a watered-
down version. They, by the way, have 270 cosponsors of our 
bill, and yet the committee there, the Ways and Means 
Committee, apparently is talking about giving the post office 
more time to do this, not having a requirement, ultimately, 
because there would be no penalties associated with it.
    I guess I would ask you, are you willing to work with us 
and stick with us to ensure that we can require the post office 
to provide this information to your law enforcement folks so 
that we can stop more of this deadly poison from coming in?
    Secretary Nielsen. Yes, absolutely. You have my commitment 
and I know, as you know, you have that of Commissioner 
McAleenan as well.
    Senator Portman. And the Commissioner has been great as 
Acting and now as Commissioner. We appreciate it. Well, I thank 
you. We want to work with you on it.
    With regard to the H-2B visa program, let me just read you 
one email that I got last week from a landscaper in Ohio. You 
and I have talked briefly about this issue. He says, ``Rob, we 
have $8,000 in revenue per day. We are not able to capture over 
$250,000 a month. We will close $2 million under our budget for 
the year which means we will lose close to $1 million this 
year.'' This is a small landscaper. This is just because he 
cannot rely on the labor force that he has relied on in the 
past.
    Can you just tell us briefly what your commitment is--you 
and I have talked about this--with regard to the H-2B rule, 
getting it through on B, and then what you think ought to be 
done in terms of a legislative visa cap?
    Secretary Nielsen. Yes. The difficulty with the regulation 
process is it is the regulation process. I will just be honest. 
We go as fast as we can but the Administrative Procedure Act 
(APA) requires us to do certain things that take a while. What 
we have tried to do is mimic the rule from last summer, so that 
it can go as quickly as possible. The more changes, if we had 
made them, to that underlying regulation, the longer it would 
take, and I completely understand that time is of the essence. 
So what we chose to do is do something as quickly as we can 
under the APA.
    What I had mentioned to you earlier, and I mentioned 
earlier in testimony, was that the best way to fix this is to 
take all of the information that the members have, which I am 
gathering--everyone I have talked to, and you as well, I said, 
``Please give me examples of companies that are going out of 
business because of either the problems with the seasonality or 
because there are not enough to package it up, give it back, 
and just put it in law.'' That will give the companies 
predictability, they will understand how many visas will be 
available, and they will understand when.
    Right now, as you know, it is tied to the appropriations 
process, which it is anyone's guess when we can get that 
through. So it is very difficult on businesses.
    Senator Portman. Well, I would agree with your approach. My 
time is coming to an end. Just to say that meanwhile, right 
now, we need relief.
    And then, finally, with regard to unaccompanied kids--and I 
do not have time to go into it--but we have information now 
from you all, as of 10 days ago, that on July 30 you will have 
a new deadline to deliver the Joint Concept of Operations, 
which we really need, both for the sake of these kids not to be 
trafficked or abused, but also to be sure, as Senator McCaskill 
said, these kids actually show up at their court proceedings, 
and that is not happening now for a lot of kids. So the 
memorandum of agreement is good. We want to get this joint 
operations concept in place in order to ensure these kids are 
protected.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Portman, before I go into the 
second round of questions I kind of want to walk through. I 
will, by the way, reinforce what Senator Portman talked about, 
the H-2B visas. There is not one manufacturing plant in 
Wisconsin, not one dairy farm, not one resort that can hire 
enough people, so that really is a pressing need. And I 
understand the problems you have with the rules and 
regulations.
    I do want to give you the opportunity--I just put my UAC 
chart\1\ up there--that, again, I think kind of shows that DACA 
sparked it. But I want you to go through three different 
examples, and talk about the laws that you have to follow, 
that, in the case of UACs, resulted in only 3.5 percent being 
returned, which, again, from my standpoint, when you come and 
you get to stay, that is a huge incentive for more to come.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 61.
---------------------------------------------------------------------------
    But I want you to cover an example of UAC, family units, 
and then an adult that claims credible fear, all under the 
backdrop, according to my calculations, and this is an 
estimate, since 2013, about 750,000 unaccompanied children and 
a parent and one child, in terms of numbers we have, have 
entered this country illegally, and most of them are still 
probably in this country.
    But just go through exactly what is the process--UAC show 
up, and let us say they do it legally.
    Secretary Nielsen. Sure. So a UAC, if they are 
unaccompanied, they come and they are put--OK, let me back up.
    Chairman Johnson. Again, I want--the laws, the precedents, 
that actually----
    Secretary Nielsen. I understand.
    Chairman Johnson [continuing]. Force you to do what you do.
    Secretary Nielsen. So if they are Mexican children, of 
Mexican origin, we can put them into expedited removal, if they 
had no legal reason to be here. So that means they have not 
claimed asylum, they do not have a legal visa, they are not 
part of the legal immigration system.
    If they are other than Mexican, which is the phrase in the 
law--so that is, normally we talk about the Northern Triangle 
countries--we do not put them in expedited removal. In any 
case, we only keep the child for 48 hours. After 48 hours, we 
turn them over to HHS. We now have this process by which we 
will help HHS vet the sponsors to help place the child in a 
safe place and safe care. So that is the UACs.
    The UACs, though, important to know that, overall, under 
current court cases, we can only hold UACs for 20 days, which 
does quite a few things. It puts a lot of pressure, time 
pressure, on making sure that we find, as a community, a 
suitable sponsor, but it also serves as a tremendous pull 
factor, because they will only be apprehended for 20 days, even 
if there is no valid reason to be here.
    Chairman Johnson. Just quick talk about the laws, the legal 
precedent. DHS has to give up an unaccompanied child within 48 
hours to HHS, and then HHS can only hold them for 20 days.
    Secretary Nielsen. Yes. So that is under the Flores 
Settlement, the combination of the Flores Settlement and the 
Trafficking Victims Protection Act. The Trafficking Victims 
Protection Reauthorization Act is, in part, why we give them 
over to HHS.
    Chairman Johnson. OK. Now family units.
    Secretary Nielsen. So family units, if they are claiming 
asylum we do all we can to keep them as a family as they go 
through the process. I mentioned earlier sometimes they are 
detained. If we do not believe they are a risk, on a case-by-
case basis, we do other methods such as, we have an 
alternatives-to-detention process. The difficulty there is the 
backlog. So we have a 600,000-person backlog. We have had an 
increase of 1,700 percent in asylum claims over the last 10 or 
15 years.
    So what that means as they go through the system, is 80 
percent of the people coming in pass that initial credible 
fear, but only 20 percent are actually granted asylum by a 
judge. So our concern is that there is just a lot of fraud. It 
does not mean that you made a fraudulent claim. It could just 
mean that you believe that you can seek asylum, for example, 
for family reunification, but our laws do not allow you to seek 
asylum for the sole purpose of family reunification.
    Chairman Johnson. But of the family units that have come 
here since 2013, how many have been returned because they do 
not qualify for asylum?
    Secretary Nielsen. Again, if they are with the children we 
have to release the children, so that often means we release 
the parents as well.
    Chairman Johnson. So a vast majority are still in this 
country.
    Secretary Nielsen. Yes, sir.
    Chairman Johnson. OK. Now an adult with credible fear.
    Secretary Nielsen. So adult with credible fear, we 
process--well, it is interesting. We have ongoing litigation 
that prevents us, in some cases, from detaining them. In some 
cases we must let them go on parole. There are certain 
exceptions to that, but we do not have the ability to detain 
until we can process them and determine if they need to be 
removed. If they claim asylum they go into the asylum bucket. 
Again, the problem with the asylum bucket is the backlog, and 
it is very heavily abused by those who actually do not seek 
asylum there by putting those who need asylum in jeopardy of 
not receiving it in a timely manner.
    Chairman Johnson. OK. Thank you. Senator McCaskill.
    Senator McCaskill. First of all, I think you are really 
working hard at trying to address some of the shortcomings, in 
terms of these children, and oversight, sometimes, is 
unpleasant. But it does not mean that any of us up here do not 
respect how difficult your job is.
    I am really worried about a case involving a whistleblower 
at TSA, and what is really upsetting to me about this 
particular case is that, as you know, there has been a lot of 
coverage about morale at TSA and problems of drugs and drinking 
and inappropriate behavior. These are actual complaints that 
were investigated by the Office of the Inspector General (OIG) 
at Homeland Security, and this activity predated you, so I want 
to be clear about that.
    But following this investigation by the Inspector General 
(IG), four charges were brought against a Senior Executive 
Service (SES) employee, including poor judgment for maintaining 
an inappropriate relationship; basically lying about an 
intimate and sexual relationship during the investigation; 
inappropriate conduct through violation of hiring practices, 
and there are more details there; unprofessional conduct by 
forwarding an email to a subordinate employee in which he 
referred to an assistant administrator with inappropriate 
language I will not use in this hearing.
    So what was really most concerning about this OIG report--
and I have the report here and I would like to make it part of 
the record,\1\ just so we have it, Mr. Chairman, without 
objection, I hope.
---------------------------------------------------------------------------
    \1\ The OIG report referenced by Senator McCaskill appears in the 
Appendix on page 66.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    But what is really scary about this review is that they 
found a series of deviations from standard policy, in terms of 
how this was handled, allowing the employee to receive 
unusually favorable treatment. And as you know, one of the 
biggest problems you have with morale is that the rules have to 
apply to everybody.
    OIG specifically identified three members of senior 
leadership at TSA that interfered with the disciplinary process 
in a way that promoted favoritism. This was the Deputy 
Administrator, the former Assistant Administrator of the Office 
of Professional Responsibility, and the current Chief Counsel.
    So, imagine my surprise when I find out that we are working 
on this, and who is in charge? The Chief Counsel. And, by the 
way, the table of penalties required that this SES be removed, 
according to the table of penalties at TSA. Instead, they 
offered a suspension and permitted the employee to continue to 
receive the same salary that he was receiving.
    The Chairman of this Committee, and I sent a letter\2\ to 
you, in February, asking about what disciplinary actions have 
been taken against this senior leadership, that interfered in a 
disciplinary process involving a complaint by a whistleblower 
that has been investigated by the IG and found to be valid. And 
I am particularly worried that we have put the fox in charge of 
the henhouse if this Chief Counsel that was part of the 
problem, as cited in this report, is in fact the one that is 
supposedly now helping making sure this does not happen again.
---------------------------------------------------------------------------
    \2\ The letter referenced by Senator McCaskill appears in the 
Appendix on page 63.
---------------------------------------------------------------------------
    So you are welcome to take this for the record, Secretary, 
if you do not have an answer for today, but this is why you 
have bad morale.
    Secretary Nielsen. I would like to get into more detail of 
it on the record--or excuse me, to return--to get back to you. 
But let me just say this. Whistleblowers need to be protected, 
period. The IG needs to be listened to. The IG serves an 
extraordinarily important function, particularly at a 
department the size of DHS. I would say that if a policy is 
such that a person who is part of the complaint is then put in 
charge of rectifying the situation, that is totally 
inappropriate, I will for sure look into that. You are right, 
that is not acceptable.
    And accountability. You have heard me say it many times 
before. The vast majority of people, men and women, who work at 
DHS are dedicated professionals. When something like this 
occurs we need to all hold them accountable as a community. It 
is as simple and as complicated as that. It needs to be done.
    I am not as familiar with the particular one, but I can 
guarantee you I will look into it and get back to you.
    Senator McCaskill. I would love that, and I should just 
tell you that the staff of this Committee has been talking to a 
number of whistleblowers from the Federal marshal program.
    Secretary Nielsen. Oh, I see. OK.
    Senator McCaskill. These are all the air marshals. And you 
have trouble there. There are inequities that are occurring, 
there is favoritism that is occurring, there is abusive 
behavior that is occurring, and we have a string of 
whistleblowers that have been coming to us about various 
problems.
    So if you would get back to us specifically on this case 
involving an investigation by the Inspector General, as it 
relates to the Federal air marshal program, and I would like 
your take on, now that you have been there a short period of 
time, but, nonetheless, long enough, I would like to know what 
your view is of the Federal air marshal program and whether or 
not it is being utilized effectively, and whether or not we are 
putting marshals on the right flights, or if we are putting 
marshals on too many flights. I have always questioned some of 
the procedures, because flying back and forth to D.C. on 
commercial airlines as often as I do, for many years it was 
really obvious who the marshals were. They were the two guys in 
jeans that got on first. And so if there was some effort to 
have them intermingle and be effective at detecting and 
shutting down threats it did not work.
    It was like, OK, everybody is standing in line at 
Southwest, all of us. We were waiting to be herded on, standing 
by our stanchion. Well, there goes the marshals. They are going 
to load us pretty soon. And then I would say something, ``Have 
the marshals gotten on yet?'' and everybody would look at me 
like I had said a dirty word. They said, ``Oh, what are you 
talking about?'', like it was some secret.
    So it has always worried me that we are not staying on top 
of what is the most effective way for us to put security in the 
air, and I would love your take on that, from your view, as the 
Secretary of Homeland Security.
    Secretary Nielsen. Yes. I appreciate that. What we are in 
the process of doing with the Administrator right now is 
actually looking at that full program. How should it work? Does 
it make sense? Is the modeling right? The example that you are 
using, at least as I understand it, was a procedure under the 
belief that deterrence was the most important. So, to some 
extent, if the marshals were obvious as to who they were there 
would be a deterrent value.
    Senator McCaskill. Should not they give them uniforms then?
    Secretary Nielsen. I am not disagreeing. I am just 
explaining as I understand it.
    Senator McCaskill. Yes.
    Secretary Nielsen. But your point is valid, which is as 
long as we are resourcing this way, we want it to be effective.
    So the Administrator and I are happy to come talk to you 
about it, our initial findings, and what we are looking at, but 
yes, it needs to be looked at, from soup to nuts, to make sure 
that it is effective.
    Senator McCaskill. And we will be glad, at the appropriate 
time, to share with you some of the whistleblower 
investigations that are ongoing, but I would like your specific 
response to that IG investigation where people in the highest 
levels of management were skewing the process in favor of 
somebody that was SES, as opposed to someone who had been 
abused.
    Chairman Johnson. Senator Hassan.
    Senator Hassan. Thank you very much, and again, good 
afternoon, Secretary. I wanted to touch on homegrown terrorism 
for a minute and our efforts to prevent it. According to the 
President's budget request, the Office of Terrorism Prevention 
Partnerships currently is staffed by 12 people. Its predecessor 
office, the Office of Community Partnerships, had 16 positions, 
and through a reprogramming of appropriations requested by then 
Secretary Johnson, was able to use support staff to build an 
outreach team that could build relationships with community 
groups, with civic leaders, and law enforcement throughout the 
country.
    According to the budget request for fiscal year 2019, the 
Office of Terrorism Prevention Partnerships is ``dedicated to 
the mission of countering violent extremism (CVE) and the 
building of community partnerships necessary to support 
countering violent extremism efforts.'' That is the quote.
    So given that the budget and personnel for this office is 
smaller but the overall mission is still the same, it would 
seem that this office would be hard pressed to build 
partnerships across the country with no field staff. Has DHS 
budgeted for field staff for this office?
    Secretary Nielsen. There is some field staff. I am happy to 
get you the specific numbers.
    Just more broadly, very quickly, what we have done is we 
have put the office within the larger Office of Public 
Engagement, so we have actually force-multiplied the office---
--
    Senator Hassan. Right.
    Secretary Nielsen [continuing]. If you will, to make sure 
that we do, as a whole group, as a whole part of DHS, look to 
build those community relationships.
    Senator Hassan. OK. Well, I would love to have our offices 
follow up----
    Secretary Nielsen. Happy to.
    Senator Hassan [continuing]. And get full information about 
that.
    And as a follow-up to that, DHS co-leads the Interagency 
Task Force on Countering Violent Extremism, along with the 
Justice Department. The task force was created to help 
coordinate the government's ability to tackle home-grown 
terrorism. In 2015, this task force was staffed by 
representatives from 11 different departments.
    Can you tell me how many different Federal agencies 
currently provide staff to this interagency task force?
    Secretary Nielsen. I do not know the specific number but 
happy to get back to you this week.
    Senator Hassan. OK. I would appreciate that greatly 
because, obviously, especially when it comes to home-grown 
terrorism, the name of the game is coordination and 
communication----
    Secretary Nielsen. Absolutely.
    Senator Hassan [continuing]. Among agencies and with local 
authorities and State authorities.
    I also wanted to touch on a New Hampshire-specific issue. 
In my State, we have a significant Indonesian community, many 
of whom came to New Hampshire fleeing religious persecution 
against Christians in Indonesia. They have become members of 
the community, they have worked jobs and paid taxes, and they 
have raised their families in the Seacoast area of New 
Hampshire.
    Now, after many years of them living in this country, the 
Department of Homeland Security has prioritized them for 
deportation, a decision that could put their lives at risk if 
they return to a country where violence against religious 
minorities remains a serious issue.
    Last week you publicly pledged to my fellow New Hampshire 
Senator, Jeanne Shaheen, that you would take another look at 
this issue. When you went back and looked again at this issue, 
what did you find? Have you asked Immigration and Customs 
Enforcement for review and reconsider their efforts to deport 
members of this community?
    Secretary Nielsen. We have asked them to review it. On the 
face of it, we do not have an instance--but I would love to 
work with both of you to get some actual facts--we do not have 
an instance that they have moved in any way from 
prioritization. Again, our prioritization, as you know, is 
criminals. We do not prioritize groups, nationalities, 
religious groups. So, yes, we are looking at it. We are 
particularly concerned, as you know, given the recent terrorist 
events in Indonesia, against Christians, Catholics, and in 
particular cases.
    Senator Hassan. And let me just be clear that these are 
people who regularly went in for their check-in at ICE on a 
regular basis, and all of a sudden, last year, they got 
tickets, leave, and if were not for a Federal District Court 
telling your Department that they could not deport these 
people, they would be deported. And these people are not 
criminals, so if there was some level of new prioritization 
there that has put this community at risk, and I think there is 
a strong feeling in New Hampshire, and I am glad to hear your 
response, that we need to get some predictability and 
sustainability here for these people, and they really do face 
persecution back home. And so we would love to work with you on 
that, and it would be really good if you could make a 
commitment to finalize an answer on that----
    Secretary Nielsen. Yes.
    Senator Hassan [continuing]. In the near term.
    Secretary Nielsen. Yes, ma'am.
    Senator Hassan. OK. Thank you.
    Last, I know there has been a lot of discussion, while I 
was at another hearing, on the issue of not only unaccompanied 
minors but families with minor children. I will just add my 
support to the line of questioning you heard from Members of 
the Committee about our concerns about this. When we had a 
hearing just a couple of weeks ago about the handling of 
minors, especially as they went to sponsors, sponsor families 
and the like, it was very clear that the Department does not, 
neither DHS or HHS, they do not coordinate at all with local 
authorities and with the States as we look at how we are going 
to address the needs of children, generally, who come to this 
country and are unaccompanied or separated from their families.
    And do not support the separation of these children from 
their families. I will add my comments in support of what you 
heard from my colleagues on that issue. But if children are 
placed away from their families I think it is imperative that 
the Department and HHS work with the States. States have 
interstate compacts about how to protect children who are not 
with their families. It is important for local school 
districts, for instance, to know to expect these children at 
school, not only for the local districts' planning purposes but 
so that if these kids do not show up there is somebody, 
somewhere who knows to go look for them and find out what has 
happened to them.
    So I just think to echo what you have heard from both sides 
of the aisle this afternoon, we need to see planning and we 
need to see a better system for addressing the needs of 
children who come to this country. Thank you.
    Chairman Johnson. Senator Harris.
    Senator Harris. Thank you. Secretary Nielsen, how many 
children have been separated from their parents at ports of 
entry since January 2017?
    Secretary Nielsen. As I understand, you have referenced 700 
before, which I believe was an HHS number. Our figures are not 
the same as theirs, but we are happy to give you our numbers 
and explain why they differ.
    Senator Harris. OK, great. And can you submit that by the 
end of next week, with the other information?
    Senator McCaskill. Would you share that with the Committee? 
I think I have something----
    Secretary Nielsen. Of course.
    Senator McCaskill. If you guys have different numbers of 
children, that is something that, just on its face, is rather 
alarming. So I would like to figure out why that is.
    Secretary Nielsen. Yes. I think it is, in part, because 
when HHS does the interview they do not ask the child why they 
are unaccompanied, so their numbers are different than ours, if 
you are asking at the border, for example. So it is not 
necessarily that they conflict. It is just they are asking 
different questions. But, yes, of course, we will provide 
that----
    Senator Harris. Thanks.
    Secretary Nielsen [continuing]. And explain that.
    Senator Harris. And again, I have asked these questions of 
Under Secretary McCament before so perhaps everyone is working 
on it and I would expect that we should get it by the end of 
next week.
    And can you also give us information about what the average 
length of separation has been between those children and those 
parents? And that would be that number that you are now going 
to bring to us. OK. And also, what timelines, in terms of the 
policy that you have, exist to establish a parental 
relationship, or to reunify families. I am hoping, and will 
assume, that your protocols would have such a goal in mind, or 
at least a timeframe.
    Secretary Nielsen. Yes, ma'am they do. Part of it is a 
voluntary DNA test, if it is a family member. The concern that 
I have with that--and we do offer that--but the concern, of 
course, is you could still have a custodial relationship and 
not be a blood relative, so it is not dispositive to an 
appropriate custodian.
    But, yes, of course, that is our goal.
    Senator Harris. And then as it relates to the number of 
children who have been separated from their parents at points 
of entry, again, I would like also, for the Committee, 
information on how many of those cases resulted in trafficking 
charges.
    Regarding detention conditions, Secretary, are you aware 
that multiple Federal oversight bodies, such as the OIG and the 
Government Accountability Office (GAO), have documented medical 
negligence of immigrants in the detention system, and, in 
particular, that ICE has reported 170 deaths in their custody 
since 2003? Are you familiar with that?
    Secretary Nielsen. No, ma'am.
    Senator Harris. Are you aware that they also found that 
pregnant women, in particular, received insufficient medical 
attention while in custody, resulting in dehydration and even 
miscarriages?
    Secretary Nielsen. I do not believe that is a current 
assessment of our detention facilities.
    Senator Harris. OK. Can you please submit to this Committee 
a current assessment----
    Secretary Nielsen. Yes, I am happy to.
    Senator Harris [continuing]. On that point?
    Secretary Nielsen. We provide neonatal care. We do 
pregnancy screening from ages 15 to 56. We provide outside 
specialists, should you seek it. We do not detain any women 
past their third trimester or once they enter their third 
trimester. We provide them separate housing. So, yes, we are 
happy to detail all of the things that we do to take good care 
of them.
    Senator Harris. And did you submit that to the OIG in 
response to their findings?
    Secretary Nielsen. We have been, yes, of course, working in 
conjunction with the OIG. I am not sure exactly what the date 
is of the OIG report that you are referencing. But I will look 
into it after this.
    Senator Harris. OK. And then also between fiscal year 2012 
and March 2018, it is our understanding--before I go on, the 
OIG report is from December 2017, so it is very recent, 5 
months ago.
    Also, between fiscal year 2012 and March 2018, ICE 
received, according to these reports, 1,448 allegations of 
sexual abuse in detention facilities, and only a small percent 
of these claims have been investigated by DHS OIG. Are you 
familiar with that?
    Secretary Nielsen. I am not familiar with that number, no.
    Senator Harris. OK. Can you please provide to this 
Committee an analysis of what is going on and what plan you 
have to investigate those cases of sexual abuse,\1\ and what is 
the protocol in place in terms of what is being done to allow 
the victim to be in a safe place during and pending any 
investigation, what kind of services are these victims getting 
in terms of treating their trauma, much less any medical 
attention they may need as a result of what might be the sexual 
abuse?
---------------------------------------------------------------------------
    \1\ The information requested by Senator Harris appears in the 
Appendix on page 137.
---------------------------------------------------------------------------
    Secretary Nielsen. I will. What I have done is I have 
talked to the International Committee of the Red Cross and I 
had them visit some of our detention facilities. I am sure they 
would be happy to come brief you on that. But their 
determination is that they saw nothing but appropriate 
detention, and, in fact, much better detention they, in their 
experience, have seen in other areas.
    Senator Harris. I am sorry. Is this in response to the 
concern that you have received 1,448 allegations of sexual 
abuse in detention facilities?
    Secretary Nielsen. No, ma'am.
    Senator Harris. OK.
    Secretary Nielsen. This is in response to my wanting to 
ensure that the detention centers are taking appropriate care 
of anybody who is detained.
    Senator Harris. OK. Well, obviously, sexual abuse would not 
fall into that category.
    Secretary Nielsen. It would not.
    Senator Harris. Yes.
    Secretary Nielsen. I guess what I am saying is that just 
happened. I do not know when these results are that you are 
talking about, so I will look into them, of course.
    Senator Harris. Fiscal year 2012 through March 2018, this 
year.
    Secretary Nielsen. We will look into it.
    Senator Harris. Thank you.
    And regarding your treatment in facilities of pregnant 
women, in December 2014, again, in this report, ICE issued a 
new directive that terminated a previous policy of presumptive 
release for pregnant women which were apprehended or 
transferred to ICE. ICE adopted a policy for presumption of 
release in August 2016, in recognition of the clear health 
risks that detaining pregnant women in jail-like conditions 
pose.
    I was alarmed, frankly, Secretary, by your statement to 
Senator Murray before the Senate Appropriations Committee last 
Tuesday, that pregnant women in ICE detention were receiving 
``much better care than when they are living in the shadows.''
    So are you aware that this statement contradicts the views 
of the American College of Obstetricians and Gynecologists, the 
American Academy of Family Physicians, and the American Academy 
of Pediatricians, who are all criticized the harmful effects of 
immigration detention on the medical and mental health of 
pregnant women?
    Secretary Nielsen. What I do know is that if you cross 
between points of entry you will be detained and prosecuted. I 
also know that of the only 35 people that we have currently in 
detention who are pregnant, 33 are statutorily required to be 
detained. I also know that we go above and beyond to provide 
them adequate health care. The questioning was whether or not 
they received adequate health care. I was saying yes, they do, 
and it is paid for. So if they are coming here and they are 
fleeing persecution and they do not have adequate funds and 
they are trying to get equivalent care in the shadows, it was 
my discussion that we were providing care within the detention 
centers.
    Senator Harris. So is it your intention to continue with 
ending a program that allowed for presumptive release for 
pregnant women?
    Secretary Nielsen. If you are in your third trimester, you 
will be released, but if you break the law you will be 
detained.
    Senator Harris. So when, in the third trimester, exactly?
    Secretary Nielsen. When it begins.
    Senator Harris. At the beginning of the third trimester?
    Secretary Nielsen. Yes, ma'am.
    Senator Harris. And is there a directive that has gone out?
    Secretary Nielsen. Yes.
    Senator Harris. Will you supply that to the Committee, 
please?
    Secretary Nielsen. Yes. It is the same policy we have 
always had. The only thing we are doing now is we are no longer 
exempting classes of people from the law. If you break the law, 
you will be prosecuted.
    Senator Harris. Thank you.
    Chairman Johnson. As long as we are talking about UACs, 
still, and you are going to be providing some data, I have just 
got a couple of requests. In terms of family units, the best 
numbers I can come up with since 2013, about 225,000 family 
units. If you just take the minimum, one child, that is 
basically 450,000 additional individuals. You are saying about 
700 we have seen separations of parent from is that from that 
2013, or is that just currently in detention?
    Secretary Nielsen. I believe the HHS number was a year-long 
number.
    Chairman Johnson. Year? OK. So, yes, I would kind of just 
like all that data together. As long as you are also providing 
that, I would like to know which of those separations are due 
because you simply are not aware--is that really the parent?
    Secretary Nielsen. Understood.
    Chairman Johnson. Is there some question? So you are really 
taking that step to protect the child so we are not dealing 
with a human trafficking situation.
    We had a whistleblower in May 2017, refer to a--I think it 
was in 2014, 18 self-admitted MS-13 members were apprehended 
and just released. At that PSI hearing, I brought some more 
information. I do not have it right here but it is actually a 
rather alarming number of MS-13 members that have been 
captured, and some of them have been deported.
    Do you have DHS, or are you keeping more accurate figures 
on MS-13?
    Secretary Nielsen. Yes, we are, in conjunction with the 
Department of Justice. One of the other loopholes, that I would 
just mention quickly, is a court case called Zadvydas. Zadvydas 
requires us to release criminal aliens back into the 
communities after 6 months if their country is not willing to 
take them back. Many countries, such as China and Cuba are not 
willing to take them back. The criminals go back into the 
community. It was 1,700 released last year.
    Chairman Johnson. OK. I was going to--that just--so that 
is--that was last year. Do you have that information going back 
a number of years?
    Secretary Nielsen. Happy to.
    Chairman Johnson. OK. I would like that type of data.
    Working on a piece of legislation, in terms of authorities 
on unidentified aircraft systems, this is a really complex 
issue. It really is. I guess I would just kind of like to give 
you the ability to just kind of describe the complexity of it, 
where you are constrained. I mean, I think we are so far behind 
the curve on this thing, as these drones have become far more 
prevalent and are a real danger, and they are being used in the 
battlefield, and they are dropping--again, I really do not want 
to put any ideas in people's heads.
    But can you just talk about what you want to do? In working 
with DHS I was trying to at least get into discussion, kind of 
a more robust response, and again, I realize there is 
jurisdictional issues, that type of thing. But I just wanted to 
have you talk a little bit more of the complexities of the 
issue, and baseline, what you are asking for in terms of 
authority, what you absolutely need.
    Secretary Nielsen. Sure. So right now we do not have the 
ability to interdict or monitor, or actually, in some cases, 
identify in a traditional sense. The Department of Defense has 
such authority. So what we have done is we have mimicked our 
request and then the bill this Committee has introduced.
    Chairman Johnson. So, real quick, name the facilities the 
Department of Defense has. Is it just around their facilities? 
I mean, how limited is their capabilities?
    Secretary Nielsen. Theirs is limited as well, yes. So in, I 
would not say all of their--I defer to the Department of 
Defense, of course, but it does not cover all of their 
facilities, so it is very specific and limited cases, yes.
    Chairman Johnson. So we have sports stadiums and we have a 
number of venues that simply have--there is no authority 
whatsoever--not local, not State, not Federal.
    Secretary Nielsen. Correct.
    Chairman Johnson. OK.
    Secretary Nielsen. So soft targets is a big concern, and 
then, of course, the border. So we are already seeing them 
being used. I also do not want to put any ideas in people's 
minds, but we already see them being used in nefarious ways on 
the border.
    Chairman Johnson. The Department of Energy has some 
authorities as well?
    Secretary Nielsen. Department of Energy does. DHS and DOJ 
are the two departments that are currently lacking any 
authority.
    In terms of what we are doing, you are right. Because we 
lack authority, we have limitations on testing, we have 
limitations on research and development (R&D), we have 
limitations on purchasing and using. That would be in the bill 
that you both have introduced--would go a very long way in 
helping us to get on top of this threat.
    Chairman Johnson. I want to continue to work with you. I 
think this is absolutely crucial.
    Senator McCaskill. I just need to correct something for the 
record. In a section of my books I had a whole section on the 
morale and whistleblower issues at the Federal marshal's 
program. Then I had a separate section on the IG report where 
there were problems with an SES employee that was manipulated 
by senior management. That was TSA.
    Secretary Nielsen. OK. Thank you.
    Senator McCaskill. So I wanted to make sure we did not 
close the hearing without me explaining that I got them 
conflated as we were talking about it. I wanted to clarify that 
before we closed out the hearing.
    Chairman Johnson. OK. Not a problem.
    Let us quick turn to election security. We have held a 
briefing on this. We have certainly talked about this in other 
venues, during other hearings as well. From my standpoint there 
are three areas that are at risk. It is affecting the voter 
tally, I mean, the actual vote. Then you also have affecting 
the voter file. And then, finally, just because of the 
disruption, the public not having faith that it was a 
legitimate election.
    It is my understanding, first of all, that the Department 
has all the authorities you believe you need to address all 
three. Is that correct?
    Secretary Nielsen. Yes, that is correct.
    Chairman Johnson. Voter tallies, because election machines 
are not tied into the Internet, although there are some with 
Wi-Fi, they are disabled.
    Secretary Nielsen. Right. Our best practice that we 
recommend is do not connect to the Internet.
    Chairman Johnson. They really are not, unless it is done 
through nefarious means or something. Correct?
    Secretary Nielsen. Yes.
    Chairman Johnson. So it would be really very difficult to 
change the vote tally, for an outside actor, through cyber 
attack or something, to actually change the vote tally. Is that 
your understanding?
    Secretary Nielsen. That is my understanding. I think what 
is more likely is the counter-influence question. Would they 
change the minds of Americans through propaganda, etc? So that 
is something the Federal Bureau of Investigation (FBI) has lead 
on, and we are working on that.
    Chairman Johnson. That would be the Facebook, where they 
are----
    Secretary Nielsen. Yes, sir.
    Chairman Johnson [continuing]. OK, basically illegally 
campaigning. Voter files, that is a concern, but again, we have 
different controls and things in place. We know that. It would 
be disrupting an election and then that would turn it into, is 
this a legitimate election?
    Secretary Nielsen. What we recommend there is redundancy. 
If you do not use a paper ballot, then make sure that you have 
an audit function so that, at the end of the day, we can all 
assure ourselves that Americans have voted and their vote 
counts and it is counted correctly.
    Chairman Johnson. One of the reasons I am pointing this 
out, and then I will be finished, is I think that the biggest 
threat, really, is just the public perception--is this a 
legitimate election? And if we overstate the ability of a bad 
actor to both affect the voter file or the vote tally, we 
actually do the maligned actor's job for them. So I think it is 
very important that we are very honest in terms of what is the 
threat, in terms of the first two, so we do not affect the 
third.
    Secretary Nielsen. Sir, I agree with that. What we are 
doing at DHS, as you know, the responsibility, first and 
foremost, belongs to State and local election officials. We are 
working with them. We are hosting a meeting for all Members of 
Congress--I understand the Senate might not be able to attend 
on Thursday--but to answer any questions, talk about what DHS 
is doing, talk about the threat. We will do it again for the 
Senate. I think it is very important that everyone understands 
what we are doing, but also what the States are doing and, in 
some cases, they need to do, to make sure that they assure 
their public that they are doing everything they can.
    Chairman Johnson. But again, you believe you have the 
authorities and resources----
    Secretary Nielsen. We have all the authorities we need.
    Chairman Johnson [continuing]. To counter this?
    Secretary Nielsen. Yes.
    Chairman Johnson. Senator McCaskill, do you have any 
further questions?
    Well, then we will close out the hearing. Secretary 
Nielsen, again, thank you for your service. We certainly 
appreciate you taking the time here and your forthright answers 
to our questions.
    The hearing record will remain open for 15 days, until May 
30, at 5 p.m., for the submission of statements and questions 
for the record.
    This hearing is adjourned.
    [Whereupon, at 4:42 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
